SIGAR                                   Special Inspector General for
                                         Afghanistan Reconstruction




                                                 SIGAR 14-74 Financial Audit



      USAID’s Afghanistan Small- and Medium-Sized
      Enterprise Development Program and
      Afghanistan Stabilization Initiative Program:
      Audit of Costs Incurred by Development
      Alternatives, Inc.




                                                                JULY

                                                            2014
SIGAR 14-74-FA/ASMED and ASI Programs
SIGAR
                                                     July 2014
                                                     USAID’s Afghanistan Small- and Medium-Sized Enterprise
                                                     Development Program and Afghanistan Stabilization Initiative
                                                     Program: Audit of Costs Incurred by Development Alternatives, Inc.

                                                     SIGAR 14-74-FA
Special Inspector General for
Afghanistan Reconstruction                           WHAT THE AUDIT FOUND
                                                     Kearney & Company, P.C. (Kearney) identified two material weaknesses with
WHAT SIGAR REVIEWED                                  Development Alternatives, Inc.’s (DAI) internal control over financial reporting
                                                     and five instances of DAI’s noncompliance with the terms of the award and
The U.S. Agency for International Development
                                                     applicable laws and regulations. The material weaknesses and instances of
(USAID) entered into contracts with
                                                     noncompliance resulted in Kearney questioning $455,883 in unsupported
Development Alternatives, Inc. (DAI) to support
                                                     costs—costs not supported by sufficient documentation to allow Kearney to
two USAID programs—the Afghanistan Small-
                                                     determine their accuracy and allowability. Kearney did not identify any ineligible
and Medium-Sized Enterprise Development
                                                     costs—costs prohibited by the contract, applicable laws, or regulations.
(ASMED) program and the Afghanistan
Stabilization Initiative (ASI).                               Category             Questioned Costs Total     Ineligible   Unsupported
ASMED was designed to eliminate non-                 Other Direct Costs (ASMED)                    $25,335           $0           $25,335
governmental barriers to establishing and            Grants and Fee (ASMED)                      $419,049            $0          $419,049
running a business in Afghanistan by funding         Salaries & Wages (ASMED)                           $2           $0                  $2
such activities as supporting the development        Allowances (ASI)                               $3,678           $0            $3,678
of local business infrastructure. ASI was            Other Direct Costs (ASI)                       $7,819           $0            $7,819
designed to build trust between communities          Totals                                      $455,883            $0          $455,883
and the Afghan government through small
community improvement projects.                      Regarding material weaknesses, Kearney found inadequacies in DAI’s review
                                                     and approval procedures for expenditures and deficiencies in its recordkeeping.
SIGAR’s financial audit, performed by Kearney
                                                     Regarding DAI’s noncompliance with the terms of the award and applicable laws
& Company, P.C. (Kearney), covered the period
                                                     and regulations, Kearney found unexplained discrepancies between DAI’s
October 26, 2006, through November 30,
                                                     general ledger, monitoring reports, grant closeout, and other supporting
2012 and expenditures of $113,387,067 for
                                                     documentation provided to the U.S. Agency for International Development
ASMED, and November 1, 2011, through
                                                     (USAID). As a result, the general ledger or the other documents could be
September 25, 2012 and $31,269,391 for ASI.
                                                     incomplete because reconciliations were not properly performed or documented.
Kearney (1) identified and reported on
significant deficiencies or material weaknesses      Kearney identified five prior audit findings relevant to the contracts and found
in DAI’s internal controls related to the task       that DAI had not taken adequate corrective action to address one of them.
order; (2) identified and reported on instances      Specifically, in a June 2012 report on the Afghanistan Stabilization Initiative
of material noncompliance with the terms of          (ASI), SIGAR found discrepancies in DAI’s timekeeping and billing records.
the award and applicable laws and regulations,       Kearney’s audit determined that some of these discrepancies persisted.
including any potential fraud or abuse;
                                                     Kearney issued an unqualified opinion on DAI’s Special Purpose Financial
(3) determined and reported on whether DAI
                                                     Statements for the ASMED and ASI, finding that they presented fairly in all
has taken corrective action on prior findings
                                                     material respects, revenues received, costs incurred, and the balance for the
and recommendations; and (4) rendered an
                                                     indicated periods in accordance with requirements established by SIGAR.
opinion on the fair presentation of DAI’s Special
Purpose Financial Statement. See Kearney’s             WHAT SIGAR RECOMMENDS
report for the precise audit objectives.
                                                       SIGAR recommends that the Mission Director of USAID/Afghanistan and the
In contracting with an independent audit firm          Acting Director of the Office of Transition Initiatives work in conjunction to:
and drawing from the results of a contracted
audit, SIGAR is required by auditing standards         1. Determine the allowability of and recover, as appropriate, $455,883 in
to provide oversight of the work performed.               unsupported costs identified in the report.
Accordingly, SIGAR reviewed Kearney’s audit
                                                       2. Advise DAI to address the report’s two internal control findings.
results and found them to be in accordance
with generally accepted government auditing            3. Advise DAI to address the report’s five noncompliance findings.
standards.

       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 7, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development

Stephen Lennon
Acting Director
Office of Transition Initiatives
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Development Alternatives, Inc. (DAI) under two
U.S. Agency for International Development (USAID) contracts. One of the contracts provided support to the
Afghanistan Small- and Medium-sized Enterprise Development (ASMED) program, 1 and the other supported
the Afghanistan Stabilization Initiative (ASI). 2 The audit, which was performed by Kearney & Company, P.C.
(Kearney), covered the periods October 26, 2006, through November 30, 2012, and $113,387,067 in costs
for ASMED; and November 1, 2011, through September 25, 2012, and $31,269,391 in costs for ASI.
Based on the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan and the
Acting Director of the Office of Transition Initiatives work in conjunction to:
      1. Determine the allowability of and recover, as appropriate, $455,883 in unsupported costs identified in
         the report.

      2. Advise DAI to address the report’s two internal control findings.

      3. Advise DAI to address the report’s five noncompliance findings.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction

(F-023)




1   USAID contract number 306-C-00-07-00503-00
2   USAID contract number 306-DOT-I-02-08-00035-00
 OFFICE OF THE SPECIAL INSPECTOR
    GENERAL FOR AFGHANISTAN
         RECONSTRUCTION

              Development Alternatives, Inc.


 Financial Audits of Costs Incurred under Contract Numbers 306-C-
 00-07-00503-00 (for the period October 26, 2006 through November
                            30, 2012) and
306-DOT-I-02-08-00035-00 (for the period November 1, 2011 through
                        September 25, 2012)



                                  March 21, 2014




                                           Point of Contact
                                        David Zavada, Partner
                                      1701 Duke Street, Suite 500
                                         Alexandria, VA 22314
                                  703-931-5600, 703-931-3655 (fax)
                                       dzavada@kearneyco.com
            Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


TRANSMITTAL LETTER

May 15, 2014



Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, VA 22202


To Special Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this document) is
pleased to submit this Audit Report, as required under Contract Number GS-23F-0092J, Task
HHSP233201300469G for Development Alternatives, Inc. (DAI). This Audit Report is in regard
to DAI Contract Number 306-C-00-07-00503-00 for Afghanistan Small and Medium-Sized
Enterprise Development Activity (ASMED) for October 26, 2006 to November 30, 2012, and
DAI Contract 306-DOT-I-02-08-00035-00 for Afghanistan Stabilization Initiative (ASI) for
November 1, 2011 to September 25, 2012.

Thank you for providing us with the opportunity to assist the Office of the Special Inspector
General for Afghanistan Reconstruction (SIGAR) and conduct the financial audit of the two
contracts noted above. If any additional information is needed, please do not hesitate to contact
me at (703) 931-5600.

Sincerely,




David Zavada, CPA, Partner
Kearney & Company, P.C.
                                                                                                   Office of the Special Inspector General for
                                                                                                                  Afghanistan Reconstruction
                                                                                                               Development Alternatives, Inc.
                                                                                                                                 Audit Report


                                                   TABLE OF CONTENTS
                                                                                                                                     Page #

EXECUTIVE SUMMARY ...........................................................................................................1

   Background .................................................................................................................................1
   Objectives, Scope, and Methodology ........................................................................................2
   Summary of Results ...................................................................................................................4
   Summary of DAI’s Response to Findings ................................................................................6

SPECIAL PURPOSE FINANCIAL STATEMENTS ................................................................7

NOTES TO THE SPECIAL PURPOSE FINANCIAL STATEMENTS ..................................9

AUDITOR’S NOTES TO THE QUESTIONED COSTS ........................................................11

INDEPENDENT AUDITOR’S REPORT .................................................................................13

INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ...............................15

INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE .............................................17

SCHEDULE OF FINDINGS AND RESPONSES ....................................................................19

APPENDIX A – PRIOR AUDIT FINDINGS AND STATUS ................................................37

APPENDIX B – DEVELOPMENT ALTERNATIVES, INC.’S RESPONSE TO AUDIT
  REPORT .................................................................................................................................40

APPENDIX C – AUDITOR’S EVALUATION OF DEVELOPMENT ALTERNATIVES,
  INC. RESPONSE TO AUDIT REPORT .............................................................................63
                                                                   Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
                                                                               Development Alternatives, Inc.
                                                                                                 Audit Report


EXECUTIVE SUMMARY

Background

The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted
Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) to perform
an audit of the Special Purpose Financial Statements (SPFS) of two contracts awarded to
Development Alternatives, Inc. (DAI) by the Unites States Agency for International
Development (USAID).

Afghanistan Small and Medium-Sized Enterprise Development (ASMED) – Contract No. 306-C-
00-07-00503-00

USAID initiated a contract to increase the contribution of the private sector to economic growth
in a minimum of four Afghanistan provinces, including: Badakhshan, Nangarhar, Helmand, and
Herat. The objectives of ASMED included the following:

   •   Expansion of markets
   •   Development of workforce through training
   •   Job creation in small- to medium-sized enterprises
   •   Promotion of investments by local and foreign interests
   •   International competition
   •   Improvement of the competitiveness of local products with imports.

The primary goal of the contract was to eliminate non-governmental barriers to establishing and
running a business in Afghanistan.

The ASMED contract was awarded to DAI for the period of October 26, 2006 through October
31, 2011. The contract was a cost plus, fixed fee contract valued at an initial amount of
$55,003,159, covering the base period and all option periods. Subsequent modifications
increased the funding to $113,993,245 and extended the period of performance to November 30,
2012. The audit period covered in this report is October 26, 2006 through November 30, 2012.

Afghanistan Stabilization Initiative (ASI) – Contract No. 306-DOT-I-02-08-00035-00

The USAID, Office of Transition Initiative (OTI) initiated a three-year program in Afghanistan
in June 2009 entitled “Afghanistan Stabilization Initiative” (ASI). The ASI program was
designed to build confidence and trust between the Government of the Islamic Republic of
Afghanistan (GIRoA) and communities through the identification and implementation of small
community improvement projects in unstable areas of Afghanistan.

ASI was designed to support GIRoA in post-conflict areas through small, community-driven
activities in order to increase the willingness and capacity of communities to cooperate and
interact with GIRoA, and expand GIRoA’s capacity to exercise timely, credible, and responsive
civil functions.



                                                1
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


The ASI Task Order was awarded under the Support Which Implements Fast Transition III
(SWIFT III) indefinite delivery, indefinite quantity (IDIQ) contract to DAI for the period of June
26, 2009 through June 25, 2012. DAI was contracted to establish a mechanism capable of
mobilizing relevant GIRoA representatives and communities in consultative decision-making
processes. These efforts are to support counterinsurgency operations by improving economic
and social conditions, while simultaneously enhancing the legitimacy of the GIRoA. The
contract was a cost-plus, fixed fee contract valued at an initial amount of approximately
$151,301,272. Subsequent modifications revised the Statement of Work (SOW) to decrease the
contract value to $82,589,520, and extended the period of performance to September 25, 2012.
The audit period covered in this report is November 1, 2011 through September 25, 2012.

Objectives, Scope, and Methodology

Objectives

In accordance with the contract awards, the specific audit objectives of this financial statement
audit are to:

   •    Express an opinion on whether the SPFS for the awards presents fairly, in all material
        respects, the revenues received, costs incurred, items directly procured by the U.S.
        Government, and balances for the period audited, in conformity with the terms of the
        awards and Generally Accepted Accounting Principles (GAAP) or other comprehensive
        basis of accounting
   •    Evaluate and obtain a sufficient understanding of the audited entity’s internal control
        related to the awards, assess control risk, and identify and report on significant
        deficiencies, including material internal control weaknesses
   •    Perform tests to determine whether the audited entity complied, in all material respects,
        with the awards’ requirements and applicable laws and regulations; and identify and
        report on instances of material noncompliance with terms of the awards and applicable
        laws and regulations, including potential fraud or abuse that may have occurred
   •    Determine and report on whether the audited entity has taken adequate corrective action
        to address findings and recommendations from previous engagements that could have a
        material effect on the SPFS.

Scope

Our audits of the SPFS covered the following USAID contracts awarded to DAI:

   •    No. 306-C-00-07-00503-00: ASMED, for the period of October 26, 2006 through
        November 30, 2012
   •    No. 306-DOT-I-02-08-00035-00: ASI, for the period of November 1, 2011 through
        September 25, 2012.

Our audit procedures of indirect costs were limited to determining whether the indirect rates per
the Negotiated Indirect Cost Rate Agreement were properly applied to the direct costs and



                                                 2
                                                                   Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
                                                                               Development Alternatives, Inc.
                                                                                                 Audit Report


subsequently reported on the SPFS, correctly calculated, and appropriately charged to the U.S.
Government in accordance with the agreement. The scope of our audit does not include
procedures to verify the material accuracy of DAI’s indirect cost rates and fixed fee rates. These
rates are subject to USAID oversight through an incurred cost audit. Therefore, such information
has not been subject to the auditing procedures beyond those designed to test the application of
those unaudited rates in the preparation of the SPFS; accordingly, we do not express an opinion
or provide any assurance on the rates.

Our audit was conducted for the purpose of forming an opinion on the SPFS in accordance with
the SPFS presentation requirements in Note 1. Therefore:

   •   The Transmittal Letter to SIGAR and the information presented in the Table of Contents,
       Executive Summary, and Management’s Responses to Our Findings are presented for the
       purpose of additional analysis and are not required parts of the SPFS. Such information
       has not been subject to the auditing procedures applied in the audit of the SPFS, and
       accordingly, we do not express an opinion or provide any assurance on it
   •   The scope of our audit does not include procedures to verify the efficacy of the ASMED
       and ASI programs, and accordingly, we do not express an opinion or provide any
       assurance on it.

Methodology

We conducted our audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS), as published in the Government Accountability Office’s (GAO) Government
Auditing Standards (GAS or “Yellow Book”). Those standards require that we plan and perform
our audit to obtain reasonable assurance about whether the SPFS of the costs incurred under the
awards are free of material misstatement. An audit includes:

   •   Obtaining an understanding of DAI’s internal controls related to the award, assessing
       control risk, and determining the extent of audit testing needed based on the control risk
       assessment
   •   Examining, on a test basis, evidence supporting the amounts and disclosures presented in
       the SPFS.

Our audit approach enables us to redefine the audit scope as necessary, and consists of the
following four phases:

Planning: Kearney developed an understanding of DAI and the SPFS by performing the
following:

   •   Analyzing and comparing booked to billed costs
   •   Reviewing for changes in estimation and allocation methodologies and/or processes
   •   Reviewing the financial statements and footnotes
   •   Holding preliminary discussions with DAI personnel concerning their methods and
       processes



                                                3
                                                                     Office of the Special Inspector General for
                                                                                    Afghanistan Reconstruction
                                                                                 Development Alternatives, Inc.
                                                                                                   Audit Report


   •   Identifying significant costs
   •   Reviewing indirect rate applications
   •   Identifying significant sub-contracts.

Kearney also obtained the status and adequacy of the corrective actions taken based on prior
audits for follow-up in subsequent phases.

Internal Control Understanding/Evaluation: Kearney performed procedures to obtain a
sufficient understanding of the controls and compliance requirements in place over each of the
cost categories to be tested. The results of this phase were considered in determining the nature
and extent of procedures to be performed in the Testing Phase.

Testing Phase: This phase consisted of validating transaction populations and applying various
sampling techniques, obtaining sufficient appropriate audit evidence that provides reasonable
assurance as to whether the SPFS and related assertions are free of material misstatement, and
determining whether all costs claimed are allowable, allocable, and reasonable. This phase also
consisted of testing costs incurred for compliance with the contract and applicable laws and
regulations.

Reporting Phase: In this phase, Kearney provided DAI’s management with an appropriate
Management’s Representation Letter and performed wrap-up procedures designed to assess and
confirm the completion of the audit in accordance with all relevant standards.

The scope of our audit reflects our assessment of control risk and includes tests of incurred costs
to provide a reasonable basis for our opinion.

Summary of Results

Opinion

Kearney issued an unqualified opinion on the SPFS, which concludes that the SPFS for each
contract presents fairly, in all material respects, the program revenues, costs incurred and fees
applied, and resulting revenue over/(under) expenses for the indicated periods in accordance with
the terms of the agreements, and in conformity with the basis of accounting described in Note 2
of the SPFS. See the Independent Auditor’s Report section of this document for our opinion.

Questioned Costs

There are two categories of questioned costs—ineligible and unsupported. Ineligible costs are
those costs that are deemed unallowable in accordance with the terms of the contract and
applicable laws and regulations. Unsupported costs are those costs for which DAI was unable to
provide sufficient supporting documentation, including evidence of proper approvals, for
Kearney to determine the accuracy and allowability of the costs. Kearney noted a total of
$455,883 in unsupported costs, as shown in Table 1 below. No ineligible costs were identified.




                                                 4
KEARNEY&                                                             Office of the Special Inspector General for
                                                                                    Afghanistan Reconstruction
COMPANY                                                                          Development Alte1·natives, Inc.
                                                                                                   Audit Report


                                 Table 1- Total Questioned Costs

                                               Unsupported    Schedule of Findings and
       Contract           Cost Category
                                               Amount($)        Responses Reference
   AS MED              Salaries and Wages                 2 DAI ASMED NFR 2014-1.3
                       Other Direct Costs           25 ,335 DAI ASMED NFR 2014-1.1
                       (ODC)                                DAI ASMED NFR 2014-2.4
                                                            DAI ASMED NFR 2014-2.2
                       Grants and Fees             419,049 DAI ASMED NFR 2014-1.2
                                                            DAI ASMED NFR 2014-2.1
   Total Unsupported C osts -ASMED                 444,386
   ASI             Allowances                        3,678 DAI ASI NFR 2014-2
                       ODCs                             7,819 DAI ASI NFR 2014-1 .2
                                                              DAI ASI NFR 2014-2
   Total Unsupported C osts -ASI                       11,497
   Total Unsupported C osts -DAI                      455,883

Internal Control Findings

There are two categories of internal control findings- material weaknesses and significant
deficiencies. A deficiency in internal control exists when the design or operation of a control
does not allow man agement or employees, in the n01mal com se of perfon ning their assigned
functions, to prevent, or detect and coITect misstatements on a timely basis. A material weakness
is a deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity's financial statements will not be prevented,
or detected and coITected on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A summaiy of each
category of internal control findings follows.

Keain ey repo1ied the following material weaknesses:

   1. Inadequate Review and Approval Procedures (DAI ASMED Notification of Finding and
      Recommendation [NFR] 2014-1.1 , DAI ASI NFR 2014-1.1 , DAI AS MED NFR 2014-
      1.2, DAI ASI NFR 2014-1.2, DAI ASMED NFR 2014-1.3, DAI ASMED NFR 2014-1.4)
   2. Inadequate Recordkeeping (DAI ASMED NFR 2014-2.1 , DAI ASMED NFR 2014-2.2,
      DAI ASMED NFR 2014-2.4, DAI ASI NFR 2014-2).

Compliance Findings

As pa1i of om audit ofDAI's SPFS, we perfo1med tests to deten nine compliance with provisions
of the contract and other laws and regulations that have a direct and material effect on the SPFS.
We identified the following instances of noncomplian ce:




                                                  5
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


   1. Alliance Final Reports were Not Provided (DAI ASMED NFR 2014-2.3)
   2. Unexplained Discrepancies between the Final Monitoring Reports (FMR) and General
      Ledger (GL) Balances (DAI ASI NFR 2014-1.1)
   3. Untimely Payments (DAI ASMED NFR 2014-1.5 and DAI ASI NFR 2014-1.3)
   4. Unexplained Discrepancies between GL Balances and Grant Closeout and/or Supporting
      Documentation (DAI ASMED NFR 2014-1.3)
   5. Competitive Bidding Documentation Not Provided (DAI ASI NFR 2014-2 and DAI
      ASMED NFR 2014-2.1).

Review of Prior Findings and Recommendations

Kearney identified findings stated in prior audit reports that could have a material effect on the
SPFS. Kearney inquired about whether DAI had implemented corrective actions plans (CAP) to
address the findings, and subsequently determined the status and adequacy of those corrective
actions. Of the five findings identified, we have confirmed with SIGAR representatives that all
five findings have been closed. Although the findings are considered closed, Kearney notes that
DAI has implemented adequate corrective actions to address only four of the five findings; DAI
has not implemented corrective action to adequately address one of the five findings. Kearney
noted the one finding as a repeat finding, which we reported in DAI ASMED NFR 2014-2.4.
See Appendix A of this report for a summary of the prior audit findings and the status of each.

Summary of DAI’s Response to Findings

DAI has provided a response to the findings contained in this report; Kearney included DAI’s
response in a separate appendix to this report.




                                                6
                                      SPECIAL PURPOSE FINANCIAL STATEMENTS

                          Development Alternatives, Inc.                                           Auditor’s Questioned Costs
          Special Purpose Financial Statement for Costs Incurred under                                       Note A
                   ASMED Contract No. 306-C-00-07-00503-00
          For the period of October 26, 2006 through November 30, 2012
                                              Budget            Actual                         Ineligible       Unsupported     Auditor’s
                                                                                Notes
                                                ($)               ($)                             ($)               ($)          Notes
                                             (Audited)         (Audited)       (Audited)
Revenue                                  $ 113,993,245     $ 113,387,067          4        $                0 $            0


Costs Incurred and Fees Applied:
 Salaries and Wages                           17,388,955        17,243,296                                  0              2       B
 Travel and Transportation                     3,591,649         3,801,501                                  0              0
 Allowances                                    4,443,122         4,297,394                                  0              0
 Equipment                                     3,421,014         3,430,124                                  0              0
 Other Direct Costs                           30,075,450        30,877,278                                  0         25,335       C
 Subawards                                    27,826,594        26,708,521                                  0              0
 Alliances                                    13,719,344        13,622,866                                  0              0
 RC East Alliances                             3,615,627         3,849,106                                  0              0
 Grants and Fee                                9,911,490         9,556,981                                  0        419,049       D
Total Costs Incurred and Fees
                                             113,993,245       113,387,067        6                         0        444,386       H
Applied

Revenue Over/(Under) Expenses            $               0 $               0      7        $                0   $   (444,386)


The accompanying notes are an integral part of this financial statement.



                                                                   7
                         Development Alternatives, Inc.                                             Auditor’s Questioned Costs
         Special Purpose Financial Statement for Costs Incurred under                                         Note A
                  ASI Contract No. 306-DOT-I-02-08-00035-00
        For the period of November 1, 2011 through September 25, 2012
                                           Budget              Actual                          Ineligible       Unsupported    Auditor’s
                                             ($)                 ($)             Notes            ($)               ($)         Notes
                                          (Audited)           (Audited)        (Audited)
                                           Note 5
Revenue                               $ 82,589,520        $     31,269,391        4        $                0 $            0
Operational Costs Incurred and
Fees Applied:
  Salaries and Wages                                             5,911,761                                  0             0
  Travel and Transportation                                      1,321,936                                  0             0
  Allowances                                                     1,698,765                                  0         3,678       E
  Procurement                                                      132,946                                  0             0
  Other Direct Costs                                            11,778,004                                  0         7,819       F
Total Operational Costs
                                           59,326,943           20,843,412                                                        G
Incurred and Fees Applied
 Grants                                    18,251,472            8,101,180                                  0              0
 Non-Grants Under Contract
                                           5,011,105             2,324,799                                  0              0
 Technical Assistance Program
Total Costs Incurred and Fees
                                           82,589,520           31,269,391        6                         0         11,497      H
Applied
Revenue Over/(Under) Expenses         $               0   $                0      7        $                0 $     (11,497)

The accompanying notes are an integral part of this financial statement.




                                                                    8
                                Development Alternatives, Inc.
                      Notes to the Special Purpose Financial Statements
                                           (Audited)

Note 1. Basis of Presentation

The accompanying Special Purpose Financial Statements (“Statements”) include revenues and
costs incurred under:

   •   Afghanistan Small and Medium-Sized Enterprise Development Activity (ASMED) –
       Contract No. 306-C-00-07-00503-00 for the period of October 26, 2006 through October
       31, 2011
   •   Afghanistan Stabilization Initiative (ASI) – Contract No. 306-DOT-I-02-08-00035-00 for
       the period of November 1, 2011 through September 25, 2012.

Because the Statements present only a selected portion of the operations of Development
Alternatives, Inc. (DAI) in Afghanistan, these Statements do not, nor are they intended to,
present the financial position, changes in net assets, or cash flows of DAI in Afghanistan. The
information in these Statements is presented in accordance with the requirements specified by
the Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) and is
specific to the aforementioned Federal awards. Therefore, some of the amounts presented in
these Statements may differ from amounts presented in, or used in the preparation of, DAI’s
basic financial statements.

Note 2. Basis of Accounting

The Statements reflect the revenues received and expenses incurred under the aforementioned
ASMED and ASI contracts. The Statements for each contract were prepared using a
comprehensive basis of accounting other than Generally Accepted Accounting Principles
(GAAP). The contractual basis of accounting is in compliance with ASMED Contract No. 306-
C-00-07-00503-00 and ASI Contract No. 306-DOT-I-02-08-00035-00.

Note 3. Foreign Currency Conversion Method

DAI converts its expenses that were paid in local currency (Afghanis) into the functional
currency established in each contract (U.S. Dollars [USD]) by applying the transfer rate based on
the actual bank rates received for funds transferred from the USD accounts into the Afghani
accounts. Balances in the Statements are reported in whole USDs.

Note 4. Revenue

Both ASI and ASMED are cost plus, fixed fee contracts, and as such, revenue is recognized as
expenses are incurred. As part of DAI’s normal billing and adjustment practices, any revenue
recorded in excess of cost or any amount under-billed less than cost is processed as an
adjustment to the United States Agency for International Development (USAID). Any revenue




                                                9
recorded in excess of cost incurred represents an adjustment due to USAID; any revenue billed
that is less than the cost incurred is billed as an adjustment due to DAI.

Note 5. Budgeted to Actual Incurred Costs Comparisons

The cumulative contract budget is compared to the cumulative actual expenses incurred over the
life of the project for ASMED.

For ASI, the budget reported is the cumulative approved contract budget. The expenses
reported, however, are only those costs incurred for the period of November 1, 2011 through
September 25, 2012. The contract reflects the cumulative budget and does not further delineate
the budget by year. As such, the comparison cannot and should not be used to attribute nor
estimate the budget amount remaining.

Note 6. Costs Incurred by Budget Category

The budget categories presented in the Statements are line items established in each contract.
The incurred costs reported in the Statements are fully burdened utilizing approved indirect rates
as stated in the Negotiated Indirect Cost Rate Agreement (NICRA). Audits of DAI’s indirect
rates for any period covered by the Statements are coordinated with USAID. The results of final
audits of the indirect rates may result in changes to the rates applied during the preparation of
these Statements.

Note 7. Revenue over/(under) Expenses

The actual Revenue over/(under) Expenses in the amount of $0 on the Statements represents the
difference between the revenues received and earned through Federal contract award and the
costs incurred, including applied NICRAs and contracted fees. Based on the fieldwork
conducted, Kearney identified costs deemed to be unsupported and/or ineligible, resulting in
Revenue over/(under) Expenses in the amount of $(444,386) for the ASMED contract and
$(11,497) for the ASI contract based on the findings identified in the Schedule of Findings and
Responses.

Note 8. Program Status

The periods of performance for both the ASMED and ASI contracts have closed, and final
program reports were submitted and accepted by USAID. Final NICRA adjustments are pending
closure of DAI’s incurred cost submissions by USAID.




                                                10
                                 Development Alternatives, Inc.
                              Auditor's Notes to the Questioned Costs

 ill addition to the Notes to the Financial Statements presented above associated with the
 Afghanistan Stabilization fuitiative (ASI) an d Afghanistan Small and Medium-Sized Ente1p rise
 Development Activity (ASMED) Special Pmpose Financial Statements (SPFS), which ar e th e
 responsibility of Development Alternatives, fuc. 's (DAI) man agement an d identified with
 numerical notations, Kearney & Company, P.C. (referred to as "Kearney," "we," and "our" in
 this report) has included the following alphabetical notations to facilitate understanding.

 Note A. Questioned Costs

 Questioned costs are those costs that are questioned by the auditor because of an audit finding
 potentially related to:

       1. A violation or possible violation of a provision of law, regulation, contract, grant,
          cooperative agreement, or other agreement or document governing the use of Federal
          funds
       2. Where, at the time of the audit, the costs are not suppo1ted by adequate documentation
       3. Where th e costs incmTed appear unreasonable and do not reflect th e actions a pm dent
          person would take in the circumstances.

 Questioned costs identified by the auditor are presented in the SPFS in two categories:
 unsupported and ineligible costs. Unsupported costs are those costs that, after a full review of all
 documentation provided, th e auditor has concluded are inadequately or insufficiently
 documented to detennine th e allowability and accuracy of costs. fueligible costs are those that
 are explicitly questioned because they are unreasonable, prohibited by the audited contract or
 applicable laws and regulations, or not award related. Questioned costs ar e fully burdened with
 applicable indirect rates and applicable fees assigned in the contract using the applicable year in
 which the expense was incuned.

 The questioned costs repo11ed as unsuppo1ted costs on the SPFS are the actual dollars questioned
 as a result of our testing procedures. No projected error or consideration of precision is included
 in these amounts.

 Notes B through F. Explanation of Questioned Costs

                             Table 2 - Explanation of Questioned Costs

                                                                       Schedule of Findings and
Note     Line Item            Questioned Cost Description
                                                                          Responses Reference
 B       AS MED        •   Unsuppo1ted costs of $2 net due to         DAI ASMED NFR 2014-1.3
         Salaries          earnings statement discrepancies
         an d Wages
 c       AS MED        •   Unsuppo1ted costs of $23 ,214 due to       DAI ASMED NFR 2014-1.1
         Other             insufficient approvals



                                                  11
                                                                      Schedule of Findings and
Note   Line Item             Questioned Cost Description
                                                                         Responses Reference
       Direct        •   Unsuppo1ied costs of $ 1,336 due to         DAI ASMED NFR 2014-2.4
       Costs             unsubstantiated time
       (ODC)         •   Unsuppo1ied costs of $785 due to            DAI ASMED NFR 2014-2.2
                         unsuppo1ied receipt of goods/se1vices
 D     AS MED        •   Unsuppo1ied costs of $4,128 due to          DAI ASMED NFR 2014-1.2
       Grants an d       clerical en ors
       Fees          •   Unsuppo1ied costs of $414,921 due to        DAI ASMED NFR 2014-2.1
                         lack of competitive bidding
                         documentation
 E     ASI         •     Unsuppo1ied costs of $3,678 due to lack     DAI ASI NFR 2014-2
       Allowan ces       of competitive bidding documentation
 F     ASIODCs •         Unsuppo1ied costs of ($27) due to           DAI ASI NFR 2014-1.2
                         clerical en ors
                     •   Unsuppo1ied costs of $7 ,846 due to lack    DAI ASI NFR 2014-2
                         of competitive bidding documentation

 Note G : Auditor's Note to Note 5

 The ASI contract did not delineate operational costs in th e budget by line item. Thus, the
 presentation of Total Operational Costs IncmTed and Fees Applied is presented for a comparison
 of Total Budgeted against Total Actual Operational Costs IncmTed and Fees Applied.

 Note H: Auditor's Note to Note 6

 DAI has not undergone incmTed cost audits of its indirect rates for any period covered by the
 SPFS. The results of the audits of the indirect rates may result in changes to the rates applied
 dming the preparation of these SPFS, and consequently may result in changes to the incmTed
 costs charged to the contracts.




                                                  12
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



                           INDEPENDENT AUDITOR’S REPORT

To the President and Chief Executive Officer of Development Alternatives, Inc. and the Special
Inspector General for Afghanistan Reconstruction


We have audited the Special Purpose Financial Statements (SPFS) of Development Alternatives,
Inc. (DAI) for Contract Number 306-C-00-07-00503-00, Afghanistan Small and Medium-Sized
Enterprise Development for the period of October 26, 2006 through October 31, 2011 (herein
referred to as the ASMED contract); and for Contract Number 306-DOT-I-02-08-00035-00,
Afghanistan Stabilization Initiative for the period of November 1, 2011 through September 25,
2012 (herein referred to as the ASI contract). The SPFS and accompanying footnote disclosures
are the responsibility of DAI’s management. Our responsibility is to express an opinion on the
SPFS based on our audit.

We conducted our audit of the SPFS in accordance with auditing standards generally accepted in
the United States of America, and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the SPFS for each contract are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the SPFS. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

The accompanying SPFS for each contract were prepared for the purpose of complying with
financial statement presentation requirements for the Office of the Special Inspector General for
Afghanistan Reconstruction (SIGAR) and reporting the program revenues, costs incurred and
fees applied, and resulting revenue over/(under) expenses for the ASMED and ASI contracts
between DAI and the United States Agency for International Development (USAID), as
discussed in Note 1. Further, as described in Note 2, the SPFS for each contract were prepared
using a comprehensive basis of accounting other than Generally Accepted Accounting
Principles.

In our opinion, the SPFS for each contract referred to above present fairly, in all material
respects, the program revenues, costs incurred and fees applied, and resulting revenue
over/(under) expenses for the indicated periods in accordance with the terms of the agreements,
and in conformity with the basis of accounting described in Note 2 of the SPFS.

Our audit was conducted for the purpose of forming an opinion on the SPFS in accordance with
the SPFS presentation requirements in Note 1. Questioned costs are those costs that are
questioned by the auditor because of an audit finding. Therefore:

   •   The Transmittal Letter and the information presented in the Table of Contents, Executive
       Summary, and Management’s Responses to Our Findings are presented for the purpose


                                                13
       of additional analysis and are not required parts of the SPFS. Such information has not
       been subject to the auditing procedures applied in the audit of the SPFS; accordingly, we
       do not express an opinion or provide any assurance on it
   •   The SPFS and accompanying notes are the responsibility of DAI’s management. The
       auditor’s questioned costs and accompanying notes are not part of the SPFS, and are a
       result of the audit procedures
   •   The scope of our audit of indirect costs was limited to determining whether the indirect
       rates per the Negotiated Indirect Cost Rate Agreement were properly applied to the direct
       costs and subsequently reported on the SPFS, and does not include procedures to verify
       the material accuracy of DAI’s indirect cost rates and fixed fee rates, as discussed in Note
       6 of the SPFS. These rates are subject to USAID oversight through an incurred cost
       audit. Therefore, such information has not been subject to the auditing procedures
       beyond those designed to test the application of those unaudited rates in the preparation
       of the SPFS; accordingly, we do not express an opinion or provide any assurance on the
       rates.

In accordance with Government Auditing Standards, we have also issued reports, dated March 21,
2014, on our consideration of DAI’s internal control over financial reporting and on our tests of
its compliance with certain provisions of the contract agreement and applicable laws and
regulations. The purpose of those reports is to describe the scope of our testing of internal control
over financial reporting and compliance with certain provisions of the agreement and applicable
laws and regulations, as well as the results of that testing, and not to provide an opinion on
internal control over financial reporting or on compliance. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards, and should be considered in
assessing the results of our audit.

This report is intended for the information of DAI, USAID, and SIGAR, and is not intended to
be and should not be used by anyone other than these specified parties. Financial information in
this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered before
any information is released to the public.




Alexandria, Virginia
March 21, 2014




                                                 14
                                                          1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                          PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



           INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL

To the President and Chief Executive Officer of Development Alternatives, Inc. and the Special
Inspector General for Afghanistan Reconstruction


We have audited the Special Purpose Financial Statements (SPFS) of Development Alternatives,
Inc. (DAI) for Contract Number 306-C-00-07-00503-00, Afghanistan Small and Medium-Sized
Enterprise Development for the period of October 26, 2006 through October 31, 2011 (herein
referred to as the ASMED contract); and for Contract Number 306-DOT-I-02-08-00035-00,
Afghanistan Stabilization Initiative for the period of November 1, 2011 through September 25,
2012 (herein referred to as the ASI contract). We conducted our audit in accordance with
auditing standards generally accepted in the United States of America, and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the SPFS and accompanying footnote
disclosures are free of material misstatement.

DAI’s management is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments made by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal control are to provide DAI’s management with reasonable, but not absolute, assurance
that the assets are safeguarded against loss from unauthorized use or disposition; transactions are
executed in accordance with DAI management’s authorization and in accordance with the terms
of the agreements; and transactions are recorded properly to permit the preparation of the SPFS
in conformity with the basis of accounting described in Note 2 to the SPFS. Because of inherent
limitations in internal control, errors or fraud may nevertheless occur and not be detected. Also,
projection of any evaluation of the structure to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions, or that the effectiveness of
the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the SPFS, we considered DAI’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of DAI’s internal
control, determining whether controls had been placed in operation, assessing control risk, and
performing tests of DAI’s controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the SPFS and not to provide an opinion on the internal
controls. Accordingly, we do not express an opinion on the effectiveness of DAI’s internal
control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses;
therefore, there can be no assurance that all deficiencies, significant deficiencies, or material
weaknesses have been identified. However, as described in the accompanying Schedule of




                                                15
Findings and Responses, we identified certain deficiencies in internal control over financial
reporting that we consider to be material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the two deficiencies described in the
accompanying Schedule of Findings and Responses, Table 3, to be material weaknesses.

Additionally, DAI’s management indicated its response to the findings presented in our report.
We did not audit DAI’s response to our findings, and accordingly, we do not express an opinion
on it.

This report is intended solely for the information and use of DAI, the United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction,
and is not intended to be and should not be used by anyone other than these specified parties.
Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should
be considered before any information is released to the public.




Alexandria, Virginia
March 21, 2014




                                                 16
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



               INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE

To the President and Chief Executive Officer of Development Alternatives, Inc. and the Special
Inspector General for Afghanistan Reconstruction


We have audited the Special Purpose Financial Statement (SPFS) of Development Alternatives,
Inc. (DAI) for Contract Number 306-C-00-07-00503-00, Afghanistan Small and Medium-Sized
Enterprise Development for the period of October 26, 2006 through October 31, 2011 (herein
referred to as the ASMED contract); and for Contract Number 306-DOT-I-02-08-00035-00,
Afghanistan Stabilization Initiative for the period of November 1, 2011 through September 25,
2012 (herein referred to as the ASI contract), and have issued our report thereon, dated March
21, 2014. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America, and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the SPFS is free of material misstatement resulting from violations of agreement terms,
and laws and regulations that have a direct and material effect on the determination of the SPFS
amounts. DAI’s management is responsible for compliance with agreement terms and applicable
laws and regulations.

As part of obtaining reasonable assurance about whether the SPFS for each contract are free of
material misstatement, we performed tests of DAI’s compliance with certain provisions of
agreement terms, and applicable laws and regulations. However, our objective was not to
provide an opinion on overall compliance with such provisions. Accordingly, we do not express
such an opinion.

The results of our tests of compliance with certain provisions of agreement terms and applicable
laws and regulations disclosed five instances of noncompliance described in the accompanying
Schedule of Findings and Responses, Table 4, that are required to be reported under Government
Auditing Standards.

Auditors must plan and perform the audit to obtain sufficient appropriate audit evidence for
obtaining reasonable assurance about whether the financial statements are free of material
misstatement (whether caused by error or fraud). The results of our tests of compliance with
certain provisions of agreement terms and applicable laws and regulations did not disclose any
instances of fraud or abuse. However, our objective was not to provide an opinion on instances
of fraud. Accordingly, we do not express such an opinion.

Additionally, DAI’s management indicated its response to the findings presented in our report.
We did not audit DAI’s response to our findings, and accordingly, we do not express an opinion
on it.

This report is intended solely for the information and use of DAI, the United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction,


                                               17
and is not intended to be and should not be used by anyone other than these specified parties.
Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should
be considered before any information is released to the public.




Alexandria, Virginia
March 21, 2014




                                               18
KEARNEY&                                                              Office of the Special Inspector General for
                                                                                     Afghanistan Reconstruction
COMPANY                                                                           Development Alte1·natives, Inc.
                                                                                                    Audit Report


SCHEDULE OF FINDINGS AND RESPONSES

Kearney & Company, P.C. (refened to as "Kearney," ''we,'' and "our" in this repo11) noted
individual control deficiencies that, in the aggregate, resulted in two material weaknesses, as
shown in Table 3 below. The individual control deficiencies that contributed to the material
weaknesses identified below are documented in the Condition sections of the referenced
Notifications of Finding and Responses (NFR), and are summarized an d referenced here
accordingly.

Additionally, ce11ain conditions resulted in instances of noncompliance, as noted in Table 4
below.

                                  Table 3 - Material Weaknesses

Specific to the Salaries, Other Direct Costs (ODC) and the Grants balances for both the
Afghanistan Small and Medium-Sized Enterprise Development Activity (ASMED) and
Afghanistan Stabilization Initiative (ASI) contracts and the subcontractors balance for the
ASMED contract, Kearney noted a significant amount of questioned costs and instances of
noncomplian ce. Although the total questioned costs were not aggregately material to the
finan cial statements taken as a whole, we believe th at these cost categories are of paiiicular
significan ce to DAI and represent a substantial propo11ion of the financial statements. We also
believe that the issues noted within those cost categories could have a pervasive effect on the
finan cial statements, indicating that there is more than a remote likelihood of material
misstatement that could go undetected. Fmiher, we believe the ODC line items ai·e paiiicularly
sensitive, due to their composition and significance in relation to other line items, to the users of
the financial statements.

                                                                    Schedule of Findings and
                     Deficiency Summary
                                                                      Responses Reference
Material Weakness #1- Inadequate Review and Approval Procedures: Development
Alternatives, Inc. (DAI) did not have adequate internal review and approval procedures in place
during the periods under audit.
• Relevant suppo11ing documentation for ODCs was not               DAI ASMED NFR 2014-1.1
   properly approved, resulting in unsuppo1ied costs of
   $23,214. One other exception was noted because two grant
    modifications were not signed
• A control deficiency was noted based on unexplained              DAI ASI NFR 2014-1.1
    discrepancies between the final monitoring repo11s and
    general ledger (GL) balances
• Unexplained discrepan cies between GL balances and               DAI ASMED NFR 2014-1.3
    supporting documentation for payroll resulted in
    unsupported costs of $2. Two additional exceptions were
    noted for grants and ODCs based on unexplained
    discrepancies between GL balances an d grant



                                                  19
KEARNEY&                                                         Office of the Special Inspector General for
                                                                                Afghanistan Reconstruction
COMPANY                                                                      Development Alte1·natives, Inc.
                                                                                               Audit Report



                                                                  Schedule of Findings and
                    Deficiency Summary
                                                                    Responses Reference
    closeout/suppo1iing documentation
• Unprevented/undetected clerical eITors peliaining to ODCs         DAI ASI NFR 2014-1.2
    and grant transactions resulted in unsuppo1i ed costs of ($27) DAI ASMED NFR 2014-1.2
    and $4,128, respectively. One other exception was noted
    because two ODC invoices and a subcontractor invoice
    contained calculation eITors
•   Grant  documentation was not properly reviewed, resulting       DAI ASMED NFR 2014-1.4
    in incoITect coding in the GL and lack of relevant
    infonnation on the grant agreement
Material Weakness #2 - Inadequate R ecordkeeping: DAI was unable to provide adequate
suppo1i ing documentation, as the required documentation to suppo1i the controls, and in some
instances the costs incmTed, was unavailable or did not exist.
• Lack of competitive bidding documentation for allowances DAI ASI NFR 2014-2
    and ODCs resulted in unsuppo1i ed costs of $11 ,524, and       DAI ASMED NFR 2014-2.1
    lack of competitive bidding documentation for grants
    resulted in unsuppo1ied costs of $414,921. Two additional
    exceptions pertaining to competitive bidding
    documentation were noted for allowances and ODCs
• Lack of documentation to suppo1i receipt of goods/services DAI ASMED NFR 2014-2.2
    and costs incuITed resulted in unsuppo1i ed costs of $785      DAI ASMED NFR 2014-2.4
    and $1,336. One other exception was noted because a
    signed purchase order (PO) was not provided

                  Table 4 - I nstances of Noncompliance and Other Matters

                                                                Schedule of Findings and
                 Instance of Noncompliance
                                                                  Responses Reference
The Alliance Final Report was not provided                     DAI ASMED NFR 2014-2.3
There were unexplained discrepancies between the final         DAI ASI NFR 2014-1.1
monitoring repo1is and GL balances
Untimely payments were made                                    DAI ASINFR 2014-1.3
                                                               DAI ASMED NFR 2014-1.5
There were unexplained discrepancies between GL balances       DAI ASMED NFR 2014-1.3
and grant closeout and/or suppo1i ing documentation
Competitive bidding documentation was not provided             DAI ASI NFR 2014-2
                                                               DAI ASMED NFR 2014-2.1




                                              20
KEARNEY&                                                           Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
COMPANY                                                                        Development Alte1·natives, Inc.
                                                                                                 Audit Report



                                   DAI ASMED NFR 2014-1

Condition: Inadequate DAI internal processes over ASMED transactions occlming between
October 26, 2006 and November 30, 2012 resulted in control deficiencies and a total of $27,344
in unsupported costs, which are described in finiher detail below. The dollar values reported in
this finding are whole USD fully burdened using the rates per DAI's Negotiated IncmTed Cost
Rate Agreement (NICRA) and other relevant fees to the contract.

ASMED NFR 2014-1.1 - Insufficient Approvals

Relevant suppo1t ing documentation pe1taining to grants and ODCs was not properly approved by
superviso1y DAI personnel in the following instances:

   •   Grants - For a total of two instances occuITing in 2011, grant modifications were not
       signed and agreed to by the grantee; however, additional documentation provided
       sufficiently suppoited the costs, including proper signatures on subsequent modifications.
       These instances did not result in questioned costs
   •   ODCs - For one instance in 2008, the PO, invoice, and payment occmTed outside the
       period of perfonnance. The PO indicated that the vendor and DAI agreed that training
       had to continue outside the period of perfonnance; however, this was not updated on the
       signed PO. While the payment was not made until after the PO was approved, the PO
       was not signed until after the period of perfonnance had been completed and the costs
       were incmTed prior to the PO being approved, resultin~ppo1ted costs of $23 ,214.
       The unburdened costs associated with this instance ar~ .

ASMED NFR 2014-1.2 - Clerical Errors

Clerical errors were not prevented or detected by DAI's internal controls in the following
instan ces:

   •   ODCs - For a total of two instances, an ODC invoice contained a calculation eITor. The
       eITors resulted in a lower amount billed to DAI than what should have been billed. As a
       result, these errors did not result in questioned costs
   •   Grants - For one instance in 2008, the grant agreement contained a clerical eITor that
       resulted in DAI's contribution being recorded as $0, while other documentation
       su 01ted the transaction value. This instance resulted in unsu 01ted costs of $4,128.



ASMED NFR 2014-1.3 - Unexplained Discrepancies between GL Balances and Grant Closeout
and/or Supporting Documentation

Unexplained discrepan cies remained between GL balances an d grant closeout and/or supporting
documentation in the following instances:



                                                21
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


   •   Grants – For a total of 21 instances, the supporting grant closeout documentation did not
       agree to the corresponding balances per the GL. While none of these costs are considered
       to be unsupported as sufficient supporting documentation was provided to support the
       individual costs, a control deficiency was noted because Kearney was unable to verify
       properly completed closeout forms for multiple grants, totaling $1,443,987. Kearney
       noted this as a control deficiency, as it may lead to inaccurate costs and incomplete grant
       closeouts in the future
       -   Out of the 21 instances, for five individual grant numbers affecting 10 sample items,
           an updated final report was not issued, causing a discrepancy between the information
           in the report and reported GL amounts; the GL amounts were supported by other
           documentation
       -   For four individual grant numbers affecting eight sample items, the transactions that
           made up the GL amount had the incorrect ASMED grant number coded, resulting in
           misclassified grant expenses
       -   For one individual grant number affecting three sample items, DAI indicated that an
           advance transaction should have been liquidated; however, the liquidation was not
           included in the Technical Administrative Management Information System closeout
           documentation
   •   Payroll – For a total of two instances, the amount per the earnings statement did not agree
       to the corresponding balances per the GL. One discrepancy occurred in 2008 and totaled
       $6. The other discrepancy occurred in 2011 and totaled $(4). The net amount of this
       issue is $2 of unsupported costs.

   •   ODCs – For one instance in 2011, the amount paid to the employee did not reconcile to
       the GL. However, the costs related to this transaction were already noted as unsupported
       in NFR 2014-2; therefore, the costs are not reported twice.

ASMED NFR 2014-1.4 – Improper Review Procedures

Adequate review procedures were not performed over grants in the following instances:

   •   For one instance in 2009, the incorrect grant number was coded in the GL (Note: This
       instance is not the same as the incorrect GL coding instance noted above). Kearney noted
       that the costs were otherwise fully supported; therefore, these costs were not classified as
       unsupported
   •   For one instance in 2010, the period of performance was not indicated on the grant
       agreement and additional documentation provided did not provide evidence as to when
       the period of performance occurred. However, additional documentation provided
       indicated when the project began, and payment and work was not completed until after
       the start date of the grant.

ASMED NFR 2014-1.5 – Untimely Payments

Timing issues were noted in the supporting documentation provided by DAI in the following
instances:


                                                22
                                                                      Office of the Special Inspector General for
                                                                                     Afghanistan Reconstruction
                                                                                  Development Alternatives, Inc.
                                                                                                    Audit Report


   •    For one instance in 2010 for ODCs, the payment was not made until more than six
        months after the receipt of the invoice. DAI was unable to provide evidence that the six-
        month delay was the result of DAI’s ongoing invoice review procedures
   •    The other instance occurred in 2008 for subcontractors, in which the request for a
        modification was not made until six months after the period of performance had ended
        for the original contract.

DAI was able to provide other relevant documentation to verify that the costs incurred were
reasonable, and as such, these instances did not result in unsupported costs.

Cause: DAI did not have adequate internal review processes, specifically related to internal
controls related to review and approval, in place during the period under audit to:

    •   Ensure documentation was reviewed and approved as appropriate, and was timely and
        adequately maintained to support incurred costs (ASMED NFRs 2014-1.1, 2014-1.4, and
        2014-1.5)
    •   Identify and correct clerical errors during the course of its review processes (ASMED
        NFR 2014-1.2)
    •   Ensure relevant reconciliations between the GL and source documentation were
        prepared, approved, and appropriately maintained (ASMED NFR 2014-1.3).

Criteria: The following criteria apply to the various conditions identified, which are referenced
accordingly as noted below.

ASMED NFR 2014-1.1 – Insufficient Approvals, ASMED NFR 2014-1.4 – Improper Review
Procedures, and ASMED NFR 2014-1.5 – Timing Issues

Per the Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government, dated November 1999:

        “Transactions should be promptly recorded to maintain their relevance and value to
        management in controlling operations and making decisions. This applies to the entire
        process or life cycle of a transaction or event from the initiation and authorization
        through its final classification in summary records. In addition, control activities help to
        ensure that all transactions are completely and accurately recorded.”

Further, per the Federal Acquisition Regulation (FAR), Subpart 52.2, Text of Provisions and
Clauses, Section 52.216-7 “Allowable Cost and Payment”:

        “(b) Reimbursing costs
          (1) For the purpose of reimbursing allowable costs (except as provided in
              paragraph (b)(2) of this clause, with respect to pension, deferred profit sharing, and
              employee stock ownership plan contributions), the term “costs” includes only—…
             (ii) When the Contractor is not delinquent in paying costs of contract performance in
                  the ordinary course of business, costs incurred, but not necessarily paid, for—


                                                 23
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


              (A) Supplies and services purchased directly for the contract and associated
                  financing payments to subcontractors, provided payments determined due will
                  be made—
                (1) In accordance with the terms and conditions of a subcontract or invoice; and
                (2) Ordinarily within 30 days of the submission of the Contractor’s payment
                    request to the Government.”

ASMED NFR 2014-1.2 – Clerical Errors

Per the FAR, Subpart 31.2, Costs with Commercial Organizations, Section 31.201-2,
“Determining Allowability”:

       “(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to demonstrate that
       costs claimed have been incurred, are allocable to the contract, and comply with
       applicable cost principles in this subpart and agency supplements. The contracting officer
       may disallow all or part of a claimed cost that is inadequately supported.”

ASMED NFR 2014-1.3 – Unexplained Discrepancies between GL Balances and Grant Closeout
and/or Supporting Documentation

Per the Code of Federal Regulations (CFR), Section 226.53, “Retention and Access
Requirements for Records”:

       “(a) This section sets forth requirements for record retention and access to records for
       awards to recipients. USAID shall not impose any other record retention or access
       requirements upon recipients.

       (b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID.”

Per the CFR, Section 226.71, “Close-out Procedures”:

       “(a) Recipients shall submit, within 90 calendar days after the date of completion of the
       award, all financial, performance, and other reports as required by the terms and
       conditions of the award. USAID may approve extensions when requested by the
       recipient.

       (b) Unless USAID authorizes an extension, a recipient shall liquidate all obligations
       incurred under the award not later than 90 calendar days after the funding period or the
       date of completion as specified in the terms and conditions of the award or in agency
       implementing instructions.”


                                                24
                                                                      Office of the Special Inspector General for
                                                                                     Afghanistan Reconstruction
                                                                                  Development Alternatives, Inc.
                                                                                                    Audit Report


Effect: The grant closeout documentation and/or GL could be incomplete because the
reconciliations and resulting discrepancies were not properly performed and/or documented.
Lack of reconciliation and/or resolution of discrepancies resulting from the reconciliation
increases the risk that costs are assigned to the incorrect grant(s), which could result in a grant
being over-expended.

Internal controls, in some instances, may not be operating effectively to prevent or detect
material misstatements.

Recommendations: Kearney recommends that:

Recommendation #1: DAI improve procedures to ensure that proper reconciliations, reviews,
and approvals are performed and adequately documented with sufficient support for all contract
costs incurred.

Recommendation #2: DAI either provide the necessary supporting documentation or
reconciliations to USAID in support of their contract closeout procedures, or return the
unsupported amount of $27,344 based on lack of supporting documentation or explanations for
the variances identified.

Management’s Response:

DAI’s management provided an overall response to the Audit Report and specific responses to
each individual finding. The full text of DAI’s response is included in Appendix B,
Development Alternatives, Inc.’s Response to Audit Report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management’s Response in Appendix C.




                                                  25
KEARNEY&                                                           Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
COMPANY                                                                        Development Alte1·natives, Inc.
                                                                                                 Audit Report



                                   DAI ASMED NFR 2014-2

Condition: DAI internal processes did not produce or retain sufficient documentation for
ASMED transactions occmTing between October 26, 2006 and November 30, 2012, resulting in
control deficiencies and a total of $417,042 unsuppo1ied costs, which are described in ftuiher
detail below. The dollar values repo1ied in this finding are whole USD fully burdened using the
rates per DAI's NICRA and other relevant fees to the contract.

ASMED NFR 2014-2.1 - Competitive Bidding Documentation

DAI did not provide sufficient documentation to evidence that competitive bidding procedures
were followed when required, in the following instances:

    •   Allowances - A total of two instances occmTed in 2009 in which sufficient bidding
        documentation was created well after the costs were incmTed to suppo1i the fair value
        assessment and were not documented prior to the award. While the costs are overall
        suppo1ied, a control issue was noted due to the long delay in the bidding documentation
        being produced
    •   ODCs - Kearney noted that:
            For one instance in 2007, an adequate number of bids were not provided; however,
            the costs associated with this transaction were considered reasonable based on other
            relevant documentation available for review. Therefore, we repo1ied this as a control
            deficiency
            For one instance in 2010, DAI ASMED evidence of proper bidding procedures were
            not completed/documented; however, the costs were associated with similar lease
            agreements around the same time, and the costs were deemed reasonable
   •    Grants - A total of six instan ces occmTed in which adequate bidding procedures were not
        conducted over grant agreements. Since proper sole source justification or fair market
        value assessment was not conducted, the total amount of $414,921 for each of the six
         ·ant a ·eements is uestioned.


                                        Transaction          Agreement/
           Process       Instances                                                      Year
                                          Tested           Contract Amount
           Grants             1       $        14,000      $          14,000            2007
           Grants             2                74,230                248,800            2010
           Grants             2                17,253                 73,621            2011
           Grants             1                13,400                 78,500            2012
        Total                 6       $       118,883      $         414,921




                                                26
                                                                   Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
                                                                               Development Alternatives, Inc.
                                                                                                 Audit Report


ASMED NFR 2014-2.2 – Purchase Orders, Receiving Reports, and Invoices

DAI could not provide sufficient documentation to support costs incurred and/or receipt of
goods/services for ODCs in the following instances:

    •   For one instance in 2007, documentation to evidence receipt of goods/services was not
        provided, resulting in unsupported costs of $785.

    •   For one instance in 2010, a signed PO was not provided; however, the costs and services
        were included in the fully executed indefinite quantity contract (IQC) and receipt of
        services was also provided. Therefore, only a control deficiency was noted.

ASMED NFR 2014-2.3 – Alliance Final Report

The Alliance Final Report, as required by the ASMED Global Development Alliance (GDA)
Policies and Procedures to support the closeout of the alliance agreement, was not provided in
the following instances:

    •   In two instances in 2010, the Alliance Final Report was not provided; however,
        additional documentation, including quarterly and annual reports, were provided to
        support adequate closure of the Alliance agreement, resulting in a control issue and no
        questioned costs
    •   In one instance in 2011, the Alliance Final Report was not provided; however, additional
        documentation, including quarterly and annual reports, were provided to support
        adequate closure of the Alliance agreement, resulting in a control issue and no
        questioned costs
    •   In one instance in 2012, a transaction was inadequately coded as a subcontractor cost
        when it should have been a grant cost. Kearney did receive adequate grant closure
        documentation for this transaction; therefore, only a control issue was noted for
        inaccurate recordation of the transaction.

ASMED NFR 2014-2.4 – Miscellaneous

For one ODC transaction occurring in 2011, the timesheet was not provided to support the hours
worked/costs incurred, resulting in unsupported costs of $1,336.


Cause: DAI was unable to provide adequate supporting documentation, as the required
documentation to support the controls, and in some instances the costs incurred, was unavailable
or did not exist. Due to records maintenance and retention practices in place during the contract
period, DAI’s records are maintained in hard copy, which further complicates DAI’s ability to
provide sufficient, timely supporting documentation.




                                               27
                                                                  Office of the Special Inspector General for
                                                                                 Afghanistan Reconstruction
                                                                              Development Alternatives, Inc.
                                                                                                Audit Report


Criteria: Per the FAR, Subpart 13.0, Simplified Acquisition Procedures, Section 13.003,
“Policy”:

       “(a) Agencies shall use simplified acquisition procedures to the maximum extent
            practicable for all purchases of supplies or services not exceeding the simplified
            acquisition threshold (including purchases at or below the micro-purchase
            threshold). This policy does not apply if an agency can meet its requirement
            using—
            (1) Required sources of supply under Part 8 (e.g., Federal Prison Industries,
                 Committee for Purchase from People Who are Blind or Severely Disabled, and
                 Federal Supply Schedule contracts);
            (2) Existing indefinite delivery/indefinite quantity contracts; or
            (3) Other established contracts.
       (b)(1) Each acquisition of supplies or services that has an anticipated dollar value
              exceeding $3,000 ($15,000 for acquisitions as described in 13.201(g)(1)) and not
              exceeding $100,000 ($250,000 for acquisitions described in paragraph (1) of the
              Simplified Acquisition Threshold definition at 2.101) is reserved exclusively for
              small business concerns and shall be set aside (see 19.000 and Subpart 19.5).
              See 19.000(b) and 19.502-2 for exceptions.”

Per the FAR, Subpart 13.1, Procedures, Section 13.104, “Promoting Competition”:

       “The contracting officer must promote competition to the maximum extent practicable to
        obtain supplies and services from the source whose offer is the most advantageous to the
        Government, considering the administrative cost of the purchase.
              (a) The contracting officer must not—
                  (1) Solicit quotations based on personal preference; or
                  (2) Restrict solicitation to suppliers of well-known and widely distributed
                   makes or brands.
              (b) If using simplified acquisition procedures and not providing access to the
                  notice of proposed contract action and solicitation information through the
                  Governmentwide point of entry (GPE), maximum practicable competition
                  ordinarily can be obtained by soliciting quotations or offers from sources
                  within the local trade area. Unless the contract action requires synopsis
                  pursuant to 5.101 and an exception under 5.202 is not applicable, consider
                  solicitation of at least three sources to promote competition to the maximum
                  extent practicable. Whenever practicable, request quotations or offers from
                  two sources not included in the previous solicitation.”

Per DAI’s Field Procurement Guide, dated October 2009, “If total anticipated price is between
$2,500 and less than $100,000… Requires three written bids from vendors.”

Per CFR, Section 226.53, “Retention and Access Requirements for Records”:




                                              28
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


       “(a) This section sets forth requirements for record retention and access to records for
       awards to recipients. USAID shall not impose any other record retention or access
       requirements upon recipients.

       (b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID.”

DAI ASMED GDA Policies and Procedures, Section 4.7, states, “The designated GDA-Partners
shall submit, within 60 calendar days after the completion of the award, the final performance
report containing the results accomplished during the award.”

Effect: The conditions noted above, in regard to lack of supporting documentation, may result in
the following:

   •   Increased risk that costs incurred are greater than the fair market value and/or the
       Government not receiving the best value for procured goods/services when a contractor
       lacks sufficient competitive bidding documentation
   •   Increased risk that the work was not completed by the alliance or the costs claimed are
       not accurate due to lack of sufficient final report and closeout documentation
   •   Increased likelihood or frequency that other miscellaneous costs incurred are unallowable
       because relevant documentation was not provided.

Recommendations: Kearney recommends that:

Recommendation #3: DAI either provide the necessary supporting documentation or
reconciliations to USAID in support of their contract closeout procedures, or return the
unsupported amount of $417,042 based on lack of supporting documentation or explanations for
the variances identified.

Recommendation #4: DAI improve procedures to ensure that adequate documentation is
maintained and readily available to support all costs incurred. This Recommendation should also
be applied in the correction of DAI ASI NFR 2014-2.

Management’s Response:

DAI’s management provided an overall response to the Audit Report and specific responses to
each individual finding. The full text of DAI’s response is included in Appendix B,
Development Alternatives, Inc.’s Response to Audit Report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management’s Response in Appendix C.


                                                29
KEARNEY&                                                           Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
COMPANY                                                                        Development Alte1·natives, Inc.
                                                                                                 Audit Report



                                      DAI ASI NFR 2014-1

Condition: Inadequate DAI internal processes over ASI transactions occurring between
November 1, 2011 and September 25, 2012 resulted in control deficiencies and a total of ($27) in
unsupported costs, which are described in fmther detail below. The dollar values reported in this
finding are whole USDs folly burdened using the rates per DAI's NICRA and other relevant fees
to the contract.

AS! NFR 2014-1.1- Unexplained Discrepancies between the Final Monitoring Reports and
General Ledger Balances

The actual grant costs per the FMR did not agree to the conesponding balances per the GL. This
condition was noted for 10 individual grant numbers affecting 13 sample items, and is farther
broken down as follows:

   •   For six individual grant numbers affecting seven sample items, the actual grant costs
       were not refreshed on the FMR
   •   For one grant number affecting one sample item, the gross costs were recorded in the
       FMR and the net costs were recorded in the GL
   •   For three individual grant numbers affecting five sample items, transactions were posted
       under the incorrect grant number in the GL.

The foll value of the 10 individual grant agreements was $598,389, but the conditions stated
above did not result in questioned costs, as the GL balances were materially accurate and the
documentation provided by DAI sufficiently supported the reasonableness and amounts of the
transactions tested.

AS! NFR 2014-1. 2 - Clerical Errors

Clerical errors were not prevented or detected by DAI's internal controls. This condition was
noted in the following four instances, all of which pe1tain to ODC transactions occmTing in
2012:

   •   For two out of the four instances, invoice and allowance amounts were miscalculated,
       resulting in improper payments of ($45) and $18, respectively. Kearney deemed the total
       net improper payment of ($27) to be unsuppo1ted. The net amount does not represent an
       ove1payment; however, Kearney noted this amount as unsup~
       indicative of inade uate controls in this paiticular instance. -

   •   In the third instance, DAI confnmed that it paid $2,411 to an employee for annual leave
       in excess of the 120 hour maximum allowed per DAI's Administrative Procedures
       Manual. However, during follow-up, DAI adjusted the SPFS to reflect the conection of
       the ove1payment and provided an updated SPFS, which is presented in this report. While
       this item remains a finding, Keainey did not question the costs associated with this item



                                               30
                                                                     Office of the Special Inspector General for
                                                                                    Afghanistan Reconstruction
                                                                                 Development Alternatives, Inc.
                                                                                                   Audit Report


   •    In the final instance, a subcontractor invoice contained a calculation error. The error
        resulted in a lower amount billed to DAI than what should have been billed. As a result,
        the error did not result in questioned costs.

ASI NFR 2014-1.3 – Untimely Payments

For two ODC transactions, one each occurring in 2011 and 2012, the invoice was paid more than
six months after the invoice receipt date. DAI stated that the delay was the result of its ongoing
invoice review procedures, but was unable to provide evidence of that ongoing review.
However, DAI was able to provide other relevant documentation to verify that the costs incurred
were reasonable, and as such, these instances did not result in questioned costs.

Cause: DAI did not have adequate internal review processes, specifically related to internal
controls related to review and approval, in place during the period under audit to:

    •   Ensure that the FMR was properly prepared and reconciled to the GL (ASI NFR 2014-
        1.1)
    •   Identify and correct clerical errors, including erroneous payments to vendors and
        personnel, during the course of its review processes (ASI NFR 2014-1.2)
    •   Prevent untimely payments to vendors (ASI NFR 2014-1.3).

Criteria: The following criteria apply to the various conditions identified, which are referenced
accordingly as noted below.

ASI NFR 2014-1.1 – Unexplained Discrepancies between the Final Monitoring Reports and
General Ledger Balances

Per the CFR, Section 226.53, “Retention and Access Requirements for Records”:

        “(a) This section sets forth requirements for record retention and access to records for
        awards to recipients. USAID shall not impose any other record retention or access
        requirements upon recipients.

        (b) Financial records, supporting documents, statistical records, and all other records
        pertinent to an award shall be retained for a period of three years from the date of
        submission of the final expenditure report or, for awards that are renewed quarterly or
        annually, from the date of the submission of the quarterly or annual financial report, as
        authorized by USAID.”

Per the CFR, Section 226.71, “Close-out Procedures”:

        “(a) Recipients shall submit, within 90 calendar days after the date of completion of the
        award, all financial, performance, and other reports as required by the terms and
        conditions of the award. USAID may approve extensions when requested by the
        recipient.


                                                 31
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


       (b) Unless USAID authorizes an extension, a recipient shall liquidate all obligations
       incurred under the award not later than 90 calendar days after the funding period or the
       date of completion as specified in the terms and conditions of the award or in agency
       implementing instructions.”

ASI NFR 2014-1.2 – Clerical Errors

Per the FAR, Subpart 31.2, Costs with Commercial Organizations, Section 31.201-2,
“Determining Allowability”:

       “(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to demonstrate that
       costs claimed have been incurred, are allocable to the contract, and comply with
       applicable cost principles in this subpart and agency supplements. The contracting
       officer may disallow all or part of a claimed cost that is inadequately supported.”

DAI’s Administrative Procedures Manual, dated March 2010, states, “Up to fifteen (15) days of
annual leave may be paid out upon resignation or at the termination of the project.”

ASI NFR 2014-1.3 – Untimely Payments

Per the FAR, Subpart 52.2, Text of Provisions and Clauses, Section 52.216-7, “Allowable Cost
and Payment”:

       “(b) Reimbursing costs
         (1) For the purpose of reimbursing allowable costs (except as provided in
             paragraph (b)(2) of this clause, with respect to pension, deferred profit sharing, and
             employee stock ownership plan contributions), the term “costs” includes only—…
            (ii) When the Contractor is not delinquent in paying costs of contract performance in
                 the ordinary course of business, costs incurred, but not necessarily paid, for—
               (A) Supplies and services purchased directly for the contract and associated
                    financing payments to subcontractors, provided payments determined due will
                    be made—
                  (1) In accordance with the terms and conditions of a subcontract or invoice; and
                  (2) Ordinarily within 30 days of the submission of the Contractor’s payment
                      request to the Government.”

Per the GAO’s Standards for Internal Control in the Federal Government, dated November
1999:

       “Transactions should be promptly recorded to maintain their relevance and value to
       management in controlling operations and making decisions. This applies to the entire
       process or life cycle of a transaction or event from the initiation and authorization
       through its final classification in summary records. In addition, control activities help
       to ensure that all transactions are completely and accurately recorded.”


                                                32
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


Effect: The FMR and/or GL could be incomplete because the reconciliations and resulting
discrepancies were not properly performed and/or documented. Lack of reconciliation and/or
resolution of discrepancies resulting from the reconciliation increases the risk that costs are
assigned to the incorrect grant(s), which could result in a grant being over-expended.

The clerical errors noted within the ODC supporting documentation resulted in ($27) of net
unsupported costs, which is reported as such in the Special Purpose Financial Statement (SPFS)
for the contract period of November 1, 2011 through September 25, 2012.

Untimely payments increase the risk for improper or non-payment because the project personnel
would not be as familiar with the validity of the charges on the invoice due to the lapse in time
since the goods or services were received. Additionally, full costs would not be reported to
USAID in a timely manner, which could result in questioned costs.

Recommendations: Kearney recommends that:

Recommendation #5: DAI improve procedures to ensure that the FMR is properly prepared and
reconciled to the GL; identify and correct clerical errors, including erroneous payments to
vendors and personnel, during the course of its review processes; and prevent untimely payments
to vendors.

Recommendation #6: DAI improve procedures to identify and correct clerical errors, including
erroneous payments to vendors and personnel, during the course of its review processes.

Recommendation #7: DAI improve procedures to prevent untimely payments to vendors.

Recommendation #8: DAI either provide the necessary supporting documentation or
reconciliations to USAID in support of their contract closeout procedures, or make an
appropriate adjustment for the unsupported amount of ($27) based on lack of supporting
documentation or explanations for the variances identified.

Management’s Response:

DAI’s management provided an overall response to the Audit Report and specific responses to
each individual finding. The full text of DAI’s response is included in Appendix B,
Development Alternatives, Inc.’s Response to Audit Report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management’s Response in Appendix C.




                                                33
KEARNEY&                                                               Office of the Special Inspector General for
                                                                                      Afghanistan Reconstruction
COMPANY                                                                            Development Alte1·natives, Inc.
                                                                                                     Audit Report



                                     DAI ASI NFR 2014-2

Condition: DAI internal processes did not produce or retain sufficient documentation for ASI
transactions occmTing between November 1, 2011 and September 25 , 2012, resulting in a control
deficiency and a total of $11 ,524 in unsupported costs, which is described in fmther detail below.
The dollar values repo1ted in this finding are whole USDs fully burdened using the rates per
DAI's NICRA and other relevant fees to the contract.

DAI did not provide sufficient documentation to evidence that competitive bidding procedures
were followed when required in the following instances:

   •                                          in 2011, valued at $3,678 .

   •                                            , valued at $7,846 .


Cause: DAI was unable to provide suppo1t ing documentation for the unsuppo1t ed costs, as the
required documentation to suppo1t the amounts was unavailable or does not exist. Due to
records maintenance and retention practices in place during the contract period, DAI's records
are maintained in hard copy, which further complicates DAI's ability to provide sufficient,
timely suppo1ting documentation.

Criteria: Per the FAR, Subpart 13.0, Simplified Acquisition Procedures, Section 13.003,
"Policy":

       "(a) Agencies shall use simplified acquisition procedures to the maximum extent
            practicable for all purchases of supplies or se1vices not exceeding the simplified
            acquisition threshold (including purchases at or below the micro-purchase
            threshold). This policy does not apply if an agency can meet its requirement using-
             (1) Required sources of supply under Pait 8 (e.g., Federal Prison Industries,
                  Committee for Purchase from People Who are Blind or Severely Disabled, and
                  Federal Supply Schedule contracts);
             (2) Existing indefinite delive1y /indefinite quantity contracts; or
             (3) Other established contracts.
       (b)(1) Each acquisition of supplies or se1vices that has an anticipated dollar value
               exceeding $3,000 ($15 ,000 for acquisitions as described in 13.201(g)(l )) and not
               exceeding $100,000 ($250,000 for acquisitions described in paragraph (1) of the
               Simplified Acquisition Threshold definition at 2.101) is rese1ved exclusively for
               small business concerns and shall be set aside (see 19.000 and Subpait 19.5).
               See 19.000(b) and 19.502-2 for exceptions."




                                                34
                                                                   Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
                                                                               Development Alternatives, Inc.
                                                                                                 Audit Report


Per the FAR, Subpart 13.1, Procedures, Section 13.104, “Promoting Competition”:

       “The contracting officer must promote competition to the maximum extent practicable to
        obtain supplies and services from the source whose offer is the most advantageous to the
        Government, considering the administrative cost of the purchase.
              (a) The contracting officer must not—
                  (1) Solicit quotations based on personal preference; or
                  (2) Restrict solicitation to suppliers of well-known and widely distributed
                   makes or brands.
              (b) If using simplified acquisition procedures and not providing access to the
                  notice of proposed contract action and solicitation information through the
                  Governmentwide point of entry (GPE), maximum practicable competition
                  ordinarily can be obtained by soliciting quotations or offers from sources
                  within the local trade area. Unless the contract action requires synopsis
                  pursuant to 5.101 and an exception under 5.202 is not applicable, consider
                  solicitation of at least three sources to promote competition to the maximum
                  extent practicable. Whenever practicable, request quotations or offers from two
                  sources not included in the previous solicitation.”

Per DAI’s Field Procurement Guide, dated October 2009:

       “If total anticipated price is between $2,500 and less than $100,000… Requires three
       written bids from vendors.”

Per the FAR, Subpart 31.2, Contracts with Commercial Organizations, Section 31.201-2,
“Determining Allowability”:

       “(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to demonstrate that
       costs claimed have been incurred, are allocable to the contract, and comply with
       applicable cost principles…”

Effect: Lack of sufficient competitive bidding documentation increases the risk that costs
incurred are greater than the fair market value, and/or the Government does not receive the best
value for procured goods/services.

Recommendations: Kearney recommends that:

Recommendation #9: DAI either provide the necessary supporting documentation to USAID in
support of their contract closeout procedures, or return the unsupported amount of $11,524 based
on lack of supporting documentation.




                                               35
                                                                Office of the Special Inspector General for
                                                                               Afghanistan Reconstruction
                                                                            Development Alternatives, Inc.
                                                                                              Audit Report


Management’s Response:

DAI’s management provided an overall response to the Audit Report and specific responses to
each individual finding. The full text of DAI’s response is included in Appendix B,
Development Alternatives, Inc.’s Response to Audit Report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management’s Response in Appendix C.




                                             36
                 Office of the Special Inspector General for
                                Afghanistan Reconstruction
                             Development Alternatives, Inc.
                                               Audit Report




      APPENDIX A –
PRIOR AUDIT FINDINGS AND
        STATUS




           37
KEARNEY&                                                                 Office of the Special Inspector General for
                                                                                        Afghanistan Reconstruction
COMPANY                                                                              Development Alte1·natives, Inc.
                                                                                                       Audit Report


Kearney & Company, P.C. (refen ed to as "Kearney," ''we,'' and "our" in this repo11) identified
findings stated in prior audit repo11s that could have a material effect on the Special Pmpose
Financial Statements (SPFS). Kearney then inquired whether Development Alternatives, Inc.
(DAI) implemented con ective action plans (CAP) to address the findings and detennined the
status of the CAPs. Kearney identified the following prior audit findings:

Financial Audit of Costs IncmTed by DAI for ASMED CUSAID Office of Inspector General
Audit Repo11 No. F-306-12-002-N)

The following represents a smnmaiy of the finding issued by HLB Ijaz Tabussum & Co.
Chaiiered Accountants in their repo11, dated August 22, 2011:

         Previously Reported Finding                                         Status
 The auditor concluded that technology                 DAI disagreed with the finding, indicating that
 purchases of approximately $88,000 (U.S.              the grant was approved by the United States
 Dollars [USD]) were ineligible and not in line        Agency for International Development
 with the general objectives of the Afghanistan        (USAID) to develop the knowledge of
 Small and Medium-Sized Ente1prise                     technology for students in Afghanistan. The
 Development (ASMED) project.                          report has not been finalized to date as to
                                                       whether this issue is closed or needs conective
                                                       action.

Contractor Perfo1mance and Oversight/Stabilization Initiative (SIGAR Audit-12-11)

The following represents a smnmaiy of the findings related to DAI's Afghanistan Stabilization
Initiative (ASI) contract, as repo1ied by the Office of the Special Inspector General for
Afghanistan Reconstm ction (SIGAR) in their repo11, dated June 29, 2012:

        Previously Reported Findings                                         Status
 Finding 1: SIGAR concluded that DAI's role            Through execution of our audit procedures,
 in administering a subcontract with Altai             Kearney inquired of changes to DAI's process
 Consulting to perfon n monitoring and                 or ability to monitor the Altai Consulting
 evaluation services was essentially limited to        subcontract. The Office of Transition Initiative
 reviewing and approving invoices for                  (OTI) Mitigation Plan or the roles and
 payment, and did not allow for non nal                responsibilities of USAID OTI and DAI have
 oversight responsibilities, as required by            not changed; however, DAI maintains that the
 Federal Acquisition Regulation (FAR)                  costs are reasonable and that its responsibilities
 42.202(E)(2). As a result, SIGAR questioned           for the management of the subcontract were
 approximately $500,000 in costs related to the        met. Based on review of additional evidence
 Altai Consulting subcontract.                         provided by USAID to SIGAR, the finding
                                                       was closed.
 Finding 2: SIGAR identified costs related to a        Based on review of additional evidence
 DAI Iraq contract erroneously charged to the          provided by USAID to SIGAR, the finding
 ASI contract.                                         was closed.


                                                  38
KEARNEY&                                                             Office of the Special Inspector General for
                                                                                    Afghanistan Reconstruction
COMPANY                                                                          Development Alte1·natives, Inc.
                                                                                                   Audit Report



        PreYiously Reported Findings                                    Status
Finding 3: SIGAR identified questioned costs         Based on review of additional evidence
related to maintenance of full comprehensive         provided by USAID to SIGAR, the finding
and war insurance on vehicles not in service.        was closed.
Finding 4: SIGAR noted miscellaneous                 During the execution of our audit procedures,
exceptions and discrepancies related to              Kearney noted that DAI continued to have
timekeeping and billing.                             challenges providing some suppo1ting
                                                     documentation related to incmTed costs. See
                                                     Finding DAI ASMED 2014-2.4 in the
                                                     Schedule of Findings and Responses section of
                                                     this repo1t.




                                                39
                  Office of the Special Inspector General for
                                 Afghanistan Reconstruction
                              Development Alternatives, Inc.
                                                Audit Report




         APPENDIX B –
DEVELOPMENT ALTERNATIVES,
  INC.’S RESPONSE TO AUDIT
           REPORT




            40
DAI Management Response to Findings Reported on March 21, 2014 for Financial Audits of
Costs Incurred under Contract Numbers:

   -   306-C-007-00503-00 (for the period October 26, 2006 through November 30, 2012) –
       Afghanistan Small and Medium-Sized Enterprise Development Activity (ASMED) and

   -   306-DOT-I-02-08-0035-00 (for the period November 1, 2011 through September 25,
       2012) – Afghanistan Stabilization Initiative (ASI)

DAI appreciates the opportunity to provide our comprehensive response to the audit report
prepared by Kearney & Company for SIGAR. It is important for the reader to have a full
understanding of all the items included in the audit report in forming an opinion on the
reasonability, allocability and allowability of questioned costs.

In response to the reported findings, DAI either concurs with the auditor’s findings and
provides a description of the corrective actions that we have taken to mitigate the identified
risk on future projects or we indicate why we disagree with an audit finding and describe in
detail the corroborating evidence provided to the auditor that supports our position.

1. The audit report reflects a number of assertions that are not supported by the results
   of audit testing:

   a. The auditor defines questioned costs as those where “DAI was unable to provide
      sufficient supporting documentation, including evidence of proper approvals to
      determine the accuracy and allowability of the costs.”

       •   DAI provided extensive documentation in support of the costs. Over 91% of the
           questioned costs relate to six grants that were properly documented by DAI and
           approved by USAID prior to award. The auditor reports these costs as unsupported
           based on their interpretation of documentation requirements for the competitive
           bidding of these respective grants.

           DAI managed these grants in accordance with requirements of the Contract and the
           USAID approved Grants Manual which prescribed by intent “that many ASMED
           grants will not be awarded competitively” in order to permit strategic
           identification of sectors, partners and grant recipients that fit the goals and
           objectives of the ASMED program.

   b. The auditor asserts that a “significant amount of questioned costs and instances of non-
      compliance were identified, that the questioned costs represent a substantial proportion
      of the financial statements, that there could be a pervasive effect on our financial
      statements and that there is more than a remote likelihood of material misstatements
      that could go undetected.”




                                                 41
        DAI maintains that persuasive documentation supports all but $2,123 of costs
        questioned in the audit report.

        •   DAI disagrees that the questioned costs represent a substantial portion of our
            financial statement and/or that there could be a pervasive effect on our
            financial statements. Additionally, the results of the audit testing do not
            provide a basis to the claim that there is a more than remote likelihood of
            material misstatements that could or would go undetected.

2. There was no materiality threshold used in the audit.

        •   Considering the dollar value of program costs exceeded $144 million applying a
            materiality threshold of $0 resulted in audit findings that are significantly
            disproportionate to costs incurred for conducting and supporting this audit.
            Significant resources were expended by the auditor and DAI in the research and
            substantiation of a number of findings that, by all accounting and auditing
            standards are immaterial and should not have been included in the report.

3. DAI’s continuous focus on Internal Controls and Compliance - As stewards of
   taxpayer resources DAI takes its responsibilities for internal controls and compliance very
   seriously. As detailed in the attached management response to each finding, DAI is
   committed to timely reviews of business processes and continuous improvements to our
   systems and policies to achieve 100% compliance with all relevant rules and regulations.

    •   Examples of DAI continuous improvement efforts include:

         Electronic Archiving System – DAI has implemented an electronic archiving
          system to enhance the permanent archiving of critical project records. This solution
          will not only reduce project costs incurred to ship documents back to the home
          office for permanent storage but will also provide for more efficient access to
          project records for future inquiries and close outs.

         Mandatory Ethics Training – DAI requires all employees to take online ethics
          training that includes testing to demonstrate their understanding of the content
          covered.

         Field Procurement Training – DAI initiated a comprehensive field
          procurement training program on a regional basis.

DAI believes that the above demonstrate our commitment to implementing and ensuring
adequate controls and compliance with contractual, regulatory and best practices.

4. Costs are important but are not the only measure for determining reasonableness,
   allowability, allocability and success. It is equally important to consider the objectives of
   the programs and achievements of the programs in one of the most difficult working


                                                 42
   environments in the world.

       •   After extensive testing of over 500+ transactions the auditors’ report does not
           challenge whether work was performed or value was received but mostly
           focuses on the completeness of paperwork prepared in the field. It is important
           to note that all program activities were performed in close collaboration with the
           Contracting Officer (CO) and Cognizant Technical Officer (CTO) and there are
           significant documented achievements that were derived from the costs incurred.

       •   USAID judges the effectiveness and value of all programs using the Contractor
           Performance Assessments which are shown below and are indicative of the overall
           high quality and value of the ASMED and ASI programs:

                  USAID CONTRACTOR PERFORMANCE SCORES
                                ("CPARS")
               KEY AREA       ASMED - 7/8/12 ASI - 12/21/11
               QUALITY         EXCEPTIONAL    VERY GOOD
               SCHEDULE         VERY GOOD    SATISFACTORY
               COST CONTROL     VERY GOOD     VERY GOOD
               BUSINESS
               RELATIONS       EXCEPTIONAL    VERY GOOD
               MGT OF KEY
               STAFF            VERY GOOD     VERY GOOD
               SMALL
               BUSINESS         VERY GOOD           N/A
               Available scores range from Unsatisfactory, Marginal,
               Satisfactory, Very Good to Exceptional
               Note: In the ASI CPAR, the reviewer comments that the delays in
               the schedule were due to security issues that were outside of the
               control of DAI.

ASMED received the following accolades in its final CPAR:

"As the Contracting Officer, I have been very happy with DAI's implementation of ASMED. In
fact, DAI was the "gold standard" for how an implementing partner should interact with the
cognizant CO and USAID. In fact DAI's requests for CO approval/consent could serve as an
example for other USAID implementing partners to follow. Whenever DAI asked me for a
decision/opinion/approval/consent, the requests were always well researched and included the
correct FAR/AIDAR/ cites. That was much appreciated and assisted me in making
determinations more rapidly and easily."

Additionally, the reviewers’ overall recommendation for both programs was:

“Given what I know today about the Contractors ability to execute what they promised in their
proposal, I definitely would award to them today given I had a choice”


                                              43
ASMED NFR 2014-1.1 – Insufficient Approvals

   •   Grants Extensions – The two modifications questioned by the auditor were for an
       extension of the grant period by one month and all modifications encompass the full
       period of performance. As noted by the auditor, subsequent modifications which cover
       the full period of performance and include the prior modifications are signed by the
       grantees. Additional corroborating evidence provided to the auditor includes
       relevant extension requests and the purpose for the 2 extensions as well as
       approvals for all modification extensions from both USAID and the designated
       ASMED authority.

       As part of our continuous improvement efforts, DAI will review our existing grant
       modification procedures to determine feasibility for authorizing unilateral extension
       approvals after ensuring that the requests are responsible, documented and approved.
       We believe that this solution is reasonable and addresses the control finding noted by
       the auditor.

   •   ODCs – DAI disagrees with the auditor’s position that because the purchase order was
       executed after the period of performance that the $23,214 in costs incurred is
       unsupported. The auditor does not challenge that the work was performed or that
       documentation supporting the payment is complete, rather that the Purchase
       Order was signed after the services were performed.

       Persuasive evidence supporting the costs incurred and billed includes documented
       delivery, receipt, acceptance and approval of services which confirms that value
       was received as established in the fixed price purchase order and scope of work.
       Additionally, invoicing and payment ordinarily occur after services are performed and
       accepted; which can occur after the period of performance. This ensures that the scope,
       objectives and requirements are met and accepted prior to issuing payment.

       DAI will ensure that in the future any special circumstances that occur in the field that
       cause a delay in authorization of individual pieces of documentation are fully
       documented with written explanations that will be copied to relevant USAID officials
       involved.

ASMED NFR 2014- 1.2: Clerical Errors

   •   ODCs – The 2 instances referred by the auditor relate to a transposition error of $27 by
       one vendor on their invoice and an error of $10 in another vendor’s detailed submission
       of proposed costs. Given the immateriality of these transactions and since the
       amounts billed were less than the amounts authorized it would not have been cost
       effective to take corrective action in the period the amounts were billed.




                                                44
       We maintain that adequate controls are demonstrated and that no further corrective
       action is required. In addition during the course of the audit more than 500
       transactions were tested at significant cost to the Government and there were no
       instances of overbillings identified in the audit report.

   •   Grants – DAI disagrees with the auditor’s conclusion that the amount $4,128 is
       unsupported because the amount was erroneously shown in the grant agreement as $0.
       Persuasive supporting evidence provided demonstrates that the intent was to
       provide a grant for the development of the Tirin Kot Market.

            •   Documentation supporting the cost includes:
                o The grant application was submitted by Eric Bone, the USAID Field
                  Program Officer and PRT Tirin Kot and shows the contribution amount
                  requested.
                o Approval by USAID for the grant to support the development of the Tirin
                  Kot Market.
                o Transaction Voucher which includes the Grants – Deliverables &
                  Disbursement schedule certified by Eric Bone and verified and approved
                  by the ASMED project staff.
                o The final report detailing the amount and use of the funds was submitted,
                  reviewed and accepted.
                o Pictures of the completed activity and
                o Receipts and/or acknowledgement for the use of these funds.


          The above confirms the intended award and completion of the intended activity.
          The objectives were achieved, accepted, confirmed and approved resulting in
          derived value as intended under the grant.

          DAI uses the Technical Administrative Management Information System (TAMIS)
          to manage grant activities including requests for payment. Once the grant was
          authorized, staff relied on the amount reflected in TAMIS to manage payment
          requests. For this reason, the $0 value assigned in the grant agreement was not
          used to manage payment requests. As part of our review of TAMIS, additional
          controls will be considered to better reconcile the TAMIS project management
          system with grant paperwork to preclude a similar re-occurrence.

ASMED NFR 2014-1.3: Unexplained Discrepancies between GL Balances and Grant
Closeout and/or Supporting Documentation:

   •   Grants - DAI provided an explanation to the auditor which includes a reconciliation of
       variances between the actual costs of the total grant expenses recorded in the general
       ledger compared with the amount reported in the grant closeout documentation.




                                              45
    DAI acknowledges that five grant closeout reports were not updated correctly but this
    oversight had no cost impact because all differences were reconciled, provided to
    the auditor and demonstrated that the amount billed was correctly reflected.

    The differences resulted from:

           •   The exchange rate applied in preparing the payment request differed from
               the actual exchange rate received at the time of payment. The actual
               exchange rate received was billed.

           •   Instances where the tax withholding amount deducted from the grant
               payment was not classified to the grant in the GL but included in the
               closeout report. The tax amount withheld was paid to the tax authority and
               so there is no resulting cost impact.

           •   In one instance a grant activity which covered multiple regions reflected
               grant costs of only one region in the closeout report. There was no resulting
               cost impact associated with this.

           •   In one instance where multiple activities were awarded to one vendor
               certain billed costs were adjusted. This adjustment impacted the amount
               reported on the grant closeout report but there were no resulting cost
               impacts associated with this adjustment.

    DAI has recorded an adjustment to the GL for the four individual grants tested and has
    thus eliminated the discrepancy. The closeout report, however, accurately reflected the
    total costs for these grants and now reconciles to the GL.

    For the remaining grant, an advance was issued to project staff to purchase the in-kind
    materials that were approved and authorized under the grant. The advance liquidation
    submitted by the staff are fully supported however the related costs were not uploaded
    into the Technical Administrative Management Information System (TAMIS) and so
    were not included in the closeout report. There are no cost implications resulting from
    this.

    DAI is reviewing the processes for close-out using TAMIS and reconciliation to the
    general ledger to prevent such differences from occurring in the future.

•   Payroll: DAI concedes the amount questioned by the auditor in the amount of $2. The
    amount questioned is immaterial by all accounting and auditing standards and this
    difference relates to exchange rate variances. Further pursuit would significantly
    exceed the amount questioned.




                                            46
           DAI recognizes that rounding differences due to exchange rate applications may result
           in small variances. In accordance with DAI policies, costs are billed to the
           Government at the realized exchange rate. We do not agree that this results in a
           weakness in control and so no further corrective action is required.

   •       The ODCs relates to a payroll payment to a local national staff for which the timesheet
           could not be located. This is detailed under our response for Finding ASMED 2014-2.4
           Miscellaneous.

ASMED NFR 2014-1.4: Improper Review Procedures of Grants

   •       DAI supported the grant coding structure which identified that grants with prefix 001
           reflected awards to Associations and 004 awards to NGOs. In this case the grantee was
           both an NGO and an Association. As payment requests were executed, there was a
           realization of this. Grant 001-019 and 004-019 are the same grant. There is no
           duplication of cost, rather the grant agreement was executed using Grant Number 001-
           019 and payments were issued using Grant Number 004-019.

           DAI is reviewing TAMIS to determine how to set up an effective way to consolidate
           grant agreement numbers to prevent similar instances in the future. DAI does not
           believe that this is a material weakness.

   •       The period of performance for the grant shows a completion date of October 10, 2010.
           The grant agreement was signed on May 17, 2010. The transaction sampled by the
           auditor includes a fully approved Request for Payment which also shows the
           completion date as October 10, 2010. The activities and related transactions occurred
           between the signature date of May 17, 2010 and the completion date of October 10,
           2010.

           We therefore maintain that the period of performance is indicated in the grant
           agreement and on the additional documentation provided. We believe this demonstrates
           that adequate controls are in place and that further corrective actions are not required.

ASMED NFR 2014-1.5: Untimely Payments

       •    The transaction referred is a grant activity for which payment was issued 3 months
            after the complete documentation was received. Evidence provided to the auditor
            shows that DAI issued the final payment once complete documentation was received
            from the grantee. DAI’s requests for documentation are supported with e-mail
            exchanges requesting additional information and documentation. Once the additional
            information was provided, payment was issued.




                                                   47
         DAI maintains that effective and appropriate controls are demonstrated and that no
         corrective actions are required.

     •    The next transaction referred to is a Global Development Alliance (GDA) agreement
          where an extension was retroactively requested by DAI and received from USAID.
          Once approval was received from USAID an extension was fully executed. All
          deliverables established in the GDA were fully supported and documented. The
          auditor does not challenge that the project was completed or the viability of the
          documentation and approval, rather the timing of executing the modification.

         DAI is currently reviewing the TAMIS processes and will enhance controls which
         automate timely notifications when an award end-date is approaching to assure
         required modifications are executed timely.

DAI has complied with and is committed to maintaining effective and efficient controls as
detailed by the auditor with reference to the GAO, FAR and CFR citations. With exception of
the questioned costs, the auditor acknowledges that DAI provided additional or other
relevant documentation to sufficiently support the costs billed as well as their
reasonability. This demonstrates that effective controls are in place.

Specifically:

DAI strives to achieve timely, accurate and effective review, recording and sound management
practices and processes in accordance with all Governmental regulations.

FAR Subpart 52.2 (b)(1)(ii)(A)(1) and (2) specify that payments to subcontractors will be
made if in accordance with the terms and conditions of a subcontract or invoice and ordinarily
within 30 days of submission. DAI applies the same standard for issuing payment. Payment
and resulting invoicing to the client is delayed when costs claimed do not comply with the
terms of the agreement whether inadequately supported or otherwise not acceptable as
required. These are the same standards that the US Government applies in processing their
payments to contractors. Determining payment due dates, FAR 32-904 (b)(1)(i) and (ii)
establishes the payment standards as (1) The later of the following two events:
        (i)     The 30th day after the designated billing office receives a proper invoice from
                the contractor (except as provided in paragraph (b)(3) of this section).
        (ii)    The 30th day after Government acceptance of supplies delivered or services
                performed.




                                                48
DAI complies with FAR, Subpart 31.2, Costs with Commercial Organizations, Section 31.201-
2, “Determining Allowability”.

CFR Section 226.53, “Retention and Access Requirements for Records” – While this
particular section relates to recipients, where DAI is a contractor, DAI retains and maintains
documents appropriately.

Similarly, CFR, Section 226.71, “Close-out Procedures” are intended specifically for/to
Recipients where DAI is a contractor. The terms of the contract dictate the completion,
performance and reporting requirements for submission to USAID. DAI has complied with
these requirements.

The auditor expresses concerns with potential effects where the Final Monitoring Report
(FMR) and/or GL was not fully updated. DAI challenges that in each instance the
reconciliations between the GL and FMR were completed and showed only immaterial
differences primarily resulting from the applied exchange rate compared with the actual
exchange rate realized and billed. None of the discrepancies discussed showed any detection of
material misstatements.

DAI believes that if reasonable and appropriate materiality limits had been applied
during the audit process, a number of the reported findings including these would not
have been included in the report.

       As a best practice, DAI continually reviews our systems and processes for purposes of
       strengthening our internal controls. DAI is reviewing TAMIS and our processes to
       identify areas for improvements and enhancements.

Recommendation #1:

 DAI has started a comprehensive review of our TAMIS system and related processes to
 refine systematic requirements which will ensure that proper reconciliations, reviews and
 approvals are performed and adequately documented prospectively for all grants and
 procurements.

Recommendation #2:

 As reflected under Findings ASMED NFR 2014-1.1 and 1.2, DAI asserts that the costs
 incurred are adequately supported and demonstrate that value was achieved. DAI disagrees that
 the questioned costs are unsupported. The reconciliations have been provided demonstrating
 that the actual costs incurred were billed and are adequately supported. The findings question
 the timing of the final completion of a Purchase Order, not that the Purchase Order was not
 prepared and fully executed. Similarly, while the final value was not reflected in the Grant
 Agreement, the value awarded and billed to the Government is fully documented and fully
 supported.



                                                49
ASMED NFR 2014-2.1 – Competitive Bidding Documentation

   •   Allowances - The purpose of bidding documentation is to demonstrate price
       reasonableness. As noted by the auditor, sufficient bidding documentation was
       provided for both instances to support the reasonableness of the costs incurred
       and billed. This documentation was provided during the audit field work along with
       supporting documentation for over 500 other transactions and as such DAI disagrees
       that there was a long delay in producing the information.

   •   ODCs – As indicated by the auditor, other relevant documentation was provided for
       both instances which demonstrate and support the reasonability of the costs billed.

       DAI is in the process of reviewing the TAMIS system to automate enhanced controls
       assuring that competitive bidding documentation is incorporated and readily available.

   •   Grants – The audit report questions $414,921 related to a difference in the
       interpretation of requirements per the contract related to the process for grant selection.
       These costs represent 91% of the total costs questioned and DAI disagrees with
       these findings as all Grants were made in accordance with DAI Grants Manual
       and were individually approved by USAID prior to award.

       The methodology of the ASMED program was to strategically identify partners and
       grant recipients that fit the goals and objectives of the program and met the key sectors
       that the project identified as focus areas, in collaboration with the designated USAID
       Cognizant Technical Officer (CTO). Excerpts from the DAI Grants Manual (as
       approved by USAID) used by project management to implement grants and relevant
       excerpts from the Contract are included below:

            •   Section E of the DAI Grants Manuals indicates that, “…DAI will use its best
                efforts to foster competition for grant funds, but it is anticipated that many
                ASMED grants will not be awarded competitively as the grantees will have
                been identified by the USAID Field Program Officers...” (FPOs).

            •   All grant activities were undertaken through a strategic coordination with
                USAID. Per section H.24, part (c) on page 35 of the ASMED prime contract,
                “USAID shall be substantially involved in establishing selection factors and
                shall approve the selection of grant recipients. Unless otherwise directed by the
                Contracting Officer, the CTO shall have authority to approve the grant recipient
                selection.”

       In all instances a grant was awarded to a specific and unique association or industry to
       achieve targeted objectives. The grants were awarded to:
                •   Afghan Carpet Export Guild
                •   Afghan Bankers Association
                •   Representative of the District of Saigen
                •   Saqeb PRP Pipe Production Factory


                                                50
               •   Samsoor Gypsum Production Factory
               •   Afghan Shoe Making Company

       In each instance grant documentation includes all required and relevant supporting
       documentation:
              •    Signed grant application
              •    Grant Evaluation
              •    USAID approval
              •    Fully executed Grant Award
              •    Evaluation and Demonstrated Delivery and Acceptance
              •    Receipts
              •    All other Approvals

       The approval by USAID concluded a structured process that lead to the award of these
       grants. The documentation supports the allowability of the costs and value received.
       The auditor does not challenge the veracity of the documentation supporting these
       grants or that the awarded objectives were achieved; rather that competitive
       bidding was not fully documented. The award of these grants is reasonable, given the
       objectives of the contract and the recognition that competition was not appropriate
       given the mitigating circumstances described above.

       DAI complied with the established contract terms, approved grants manual and all
       other relevant compliance, controls, procedures and documentation requirements. We
       therefore conclude that the grants were awarded for strategic purposes within the
       confines of the contract and that the related costs are reasonable, allowable and
       allocable.

We believe that the auditor’s conclusion that grant competition is required is incorrect
given the representations in the contract and the USAID approved grants manual. The
questioned Grants were properly approved and documented. DAI disagrees with the
auditor’s conclusion to question these grants in the amount of $414,921 based on the notion
that the grants themselves were not competed.

ASMED 2014-2.2 Purchase Orders, Receiving Reports, and Invoices ODCs

DAI concedes that 3 of 15 UPS units purchased for about $300 each could not be accounted for.
These items however were purchased through the home office with involvement of multiple
staff.

DAI is reviewing processes for procurements conducted by the home office and
transfer/assignment to the field. Additional controls demonstrating transfer and receipt will be
enhanced to ensure future procurements are tracked and documented through delivery/receipt.




                                                51
ASMED 2014-2.3 Alliance Final Report

   •   The auditor acknowledges that additional documentation, including quarterly and
       annual reports were provided to support adequate closure of the alliance
       agreements for the 3 instances noted. Because of the extensive corroborating
       documentation provided that shows the nature of the transaction and the allocability
       and allowability of the costs DAI is not certain why this was included in the audit
       report.

   •   DAI acknowledges that one transaction was inadvertently classified under the
       subcontracts line in the general ledger. This has been addressed and resolved and did
       not result in a billing adjustment.

       DAI is in the process of reviewing our TAMIS system and refining the process for
       reviewing costs reflected in TAMIS compared with classification of cost in the general
       ledger. This will ensure mitigation of similar errors in the future.

ASMED 2014-2.4 Miscellaneous

   •   DAI agrees that we were unable to locate one timesheet out of the 137 labor and fringe
       related transactions selected. It is important to note that all other information related to
       this $1,336 transaction including payment calculations, pay-sheet, approvals and the
       payment support were provided to the auditors that showed that these costs were
       allowable.

       DAI believes that the document was erroneously separated and misfiled at the time the
       project close-out occurred and so concludes that this is not an inherent or pervasive
       control issue.

       The auditor acknowledges with each finding that additional supporting
       documentation was provided and so we do not agree that the documentation was
       unavailable or did not exist.

       DAI project records are maintained in hard copy prior to 2013. In the fall of 2013 DAI
       identified and implemented an electronic document archiving system, into which field
       financial transactions are scanned and stored. This system was used during the audit and
       so the auditor has firsthand experience with this electronic archiving system. Procurement
       and grant information is already permanently maintained in TAMIS. As noted under the
       findings, DAI continues to improve TAMIS with the intent to enhance its capabilities and
       related controls.




                                                 52
 DAI has complied with and is committed to maintaining effective and efficient procurement
 processes and controls as detailed by the auditor with reference to FAR and CFR citations
 and DAI’s guidelines. With exception of the questioned costs, the auditor acknowledges that
 DAI provided additional or other relevant documentation to sufficiently support the costs
 billed as well as their reasonability. This demonstrates that effective controls are in place.

Specifically:

As relates to FAR, Subpart 13.0, Simplified Acquisition Procedures, Section 13.003, Subpart
13.1, Procedures, Section 13.104 “Promoting Competition” and DAI’s Field Procurement
Guide, the auditor acknowledges in each instance that price reasonableness was documented.
The purpose of the FAR clauses and DAI’s guidelines are to ensure that price reasonability is
demonstrated and documented. We therefore believe that DAI has complied with these
references.

As relates to CFR, Section 226.53, “Retention and Access Requirements” and DAI ASMED
GDA Policies and Procedures, the auditor confirms receipt of additional supporting
documentation for all instances with the exception of the items for which costs are questioned.
As such, DAI believes that we have complied with these requirements.

We believe we have responded to the potential effects noted by the auditor. As a best practice,
DAI periodically reviews our systems and processes for purposes of enhancement to processes
and controls. Recognizing that there is risk to loss of records we have implemented an
electronic document archiving system which is now available for all projects to upload scans
of financial records. We believe this demonstrates our commitment to compliance with record
retention and controls over our records.

As supporting documentation provided to the auditors demonstrates, the risk to incurring
greater than fair market value is very low. In no instance did the auditor challenge completion
of work performed. Lastly, we believe that all relevant documentation is on file and were
provided to the auditor in support of costs claimed.

Recommendation #3:

 DAI asserts that the necessary supporting documentation was provided supporting the
 award of the grants made. USAID approval confirms the decision to award the grants;
 all related transactional documents support the reasonability of the cost and lastly all
 required deliverables under the grant award were achieved and approved. We
 therefore maintain that the $417,042 is fully and adequately awarded and supported,
 that the costs are reasonable, allowable and allocable and that the intended value was
 achieved.




                                                53
Recommendation #4:

 DAI believes that adequate procedures and documentation has been maintained and was
 readily made available to support the costs incurred.

 As a best practice, DAI continually reviews our systems for purposes of enhancement to
 processes and controls. Recognizing that there is risk to loss of records we have
 implemented an electronic document archiving system which is now used by most
 projects to upload scans of all financial records. We believe this demonstrates our
 commitment to compliance with record retention and controls over our records.

 Demonstrating our commitment to continued improvement, DAI has strengthened our
 field procurement processes. Training by subject matter experts in the home office who
 support Business Process Management, Internal Audit and Contracts have already
 delivered the revised Field Procurement Training in Afghanistan, Middle East and Africa.
 Additional training has been planned for the remainder of 2014 in the Home Office and
 field locations.

 Mandatory ethics training and testing is also a requirement for employment. In addition
 minimum proficiency standards have been added for certain project management
 positions with a greater focus on project financial management.

 DAI believes that the above demonstrate the commitment to ensuring effective,
 appropriate and efficient enhancements to established controls and compliance
 recommendations.

ASI NFR 2014-1.1 – Unexplained Discrepancies between the Final Monitoring Reports and
General Ledger Balances

   •   Grants – All instances where a discrepancy was identified between the Final
       Monitoring Report (FMR) and the General Ledger was fully reconciled and the
       reconciliation provided to the auditor during fieldwork.

            •   Based on the complete reconciliations, the FMR for the six grants for which
                seven transactions were sampled, was updated in TAMIS and evidence
                provided to the auditor demonstrating that the amounts in the updated FMR
                agreed with the general ledger.

                This update did not result in an adjustment to amounts previously billed and
                the updated amount is now reported in the FMR.

            •   In one instance, the required local tax was withheld from a disbursement to
                the grantee. The total amount of the disbursement was correctly recorded in
                TAMIS, however, the tax that was withheld was not coded to the grant
                number in the general ledger. DAI supported to the auditors during fieldwork
                that the amount withheld was paid timely and correctly to the local authorities.


                                               54
                The amount billed is correct as is the amount reported.

            •   The transactions which were coded to the incorrect grant number in the GL
                have been corrected.

                The amount billed is correct as is the amount reported.

       The auditor confirms that, “…the conditions stated above did not result in
       questioned costs as the GL balances were materially accurate and the
       documentation provided by DAI sufficiently supported the reasonableness and
       amounts of the transactions tested.” DAI therefore concludes that adequate controls
       exist to identify related errors and prevent material reporting misstatements.

ASI NFR 2014-1.1 – Clerical Errors

   •   Allowances – The auditor refers to two transactions which resulted in an under-billing
       of $27. In the first instance an error in the termination date was made resulting in an
       under-billing of $45. In the second instance there was a transposition error of $18.

       The net amount of these two errors resulted in an under-billing to USAID and by all
       accounting and auditing standards is immaterial. As corroborated by the extensive
       transaction testing that was done as part of this audit, DAI does not feel that this is
       indicative of an internal control weakness.

   •   Excess Annual Leave Payout to Employee – DAI agrees that an error was made in
       calculating the liquidation of unused leave in the amount of $2,411 in excess of that
       authorized by USAID. This amount has been credited to USAID.

       DAI is reviewing the Field Operations Manual template to ensure that the number of
       days approved are reconciled prior to releasing payment. DAI is also working with
       field project management to ensure that staff use earned leave in a timely manner that
       does not impede project activity so as not to maintain large accrue unused leave
       balances. We believe this will mitigate similar future risks.

   •   Subcontractor Invoice Calculation Error – The subcontractor submitted a certified
       invoice where a formulaic error resulted in an under-billing for allowances. The
       amount claimed was within the amount approved for allowances and so the amount
       invoiced was approved for payment.

       As discussed with the auditor, DAI’s control environment is focused on catching
       and preventing overpayments. We therefore disagree that not catching the amount
       under-billed is indicative of an inadequate control environment as no instances of
       over-billings were identified in any of the other 366 transactions sampled,




                                                55
ASI NFR 2014-1.3 – Untimely Payment

The two ODC transactions relate to two security service invoices. The subcontractor is
required to provide supporting documentation for all claimed costs. One of the two invoices
included supporting documentation in excess of 300 documents. The second invoice includes a
Short-Payment Form detailing required invoice adjustments. In each instance documentation
includes:

           •    Timesheets – verification that days billed agrees with signed and approved
                timesheets.

           •    Verification that payments have been made to staff.

           •    Verification of billed labor categories which requires review of contracted
                billing rates compared with qualifications of each individual. Categories
                include management, guards, drivers and operations staff.

           •    Receipts for other costs claimed which include travel and allowances, life
                support, communications costs, equipment, visas and numerous other
                miscellaneous costs authorized under the subcontract.

Prior to issuing payment, DAI requires that any/all irregularities and/or missing documentation
are researched, dialogued with the subcontractor and resolved. These are similar standards to
those applied by the US Government prior to acceptance and payment. The terms of the
subcontract dictate review, acceptance and approval along with detailed invoicing
requirements for payment.

In order to ensure that subcontractor invoices are in compliance with all relevant DAI and US
Government standards it is DAI’s policy to not remit subcontractor payments until
documentation is on file, reviewed and approved. The delay cited by the auditor ensured that
the relevant documentation was obtained in support of the costs that were billed. This process,
while lengthy, resulted as affirmed by the auditor, that no questioned costs resulted.

DAI asserts that the internal review control procedures are effective and support the
reasonability, allowability and allocability of the costs billed.

DAI has complied with and is committed to maintaining effective and efficient procurement
processes and controls as detailed by the auditor with reference to FAR and CFR citations and
DAI’s guidelines. With exception of the questioned costs, the auditor acknowledges that DAI
provided additional or other relevant documentation to sufficiently support the costs billed as
well as their reasonability. This further confirms that effective controls are in place.

Specifically:

As relates to CFR, Section 226.53, “Retention and Access Requirements” and DAI Policies
and Procedures, the auditor confirms receipt of additional supporting documentation for all



                                                56
instances with the exception of the items for which costs are questioned. As such, DAI
believes that we have complied with these requirements.

CFR, Section 226.71, “Close-out Procedures” as referenced by the auditor discusses recipient
reporting requirements. DAI is a contractor and the reporting requirements are dictated and
detailed in the contract. DAI complied with all established contract reporting
requirements.

DAI asserts that it met all of the requirements per FAR 31.2, Costs with Commercial
Organizations, Section 31.201-2 “Determining Allowability”. DAI has demonstrated our
responsibility for accounting for costs appropriately and we have maintained records,
including supporting documentation, adequately to demonstrate that costs claimed have been
incurred, are allocable to the contract and comply with applicable cost principles. The auditor
has acknowledged in all instances where no costs were questioned that adequate information
supported the cost reasonability.

FAR 52.232-25 establishes that prompt payment is contingent as follows:
(a) Invoice payments—(1) Due date.(i) Except as indicated in paragraphs (a)(2) and (c) of this
clause, the due date for making invoice payments by the designated payment office is the later
of the following two events:

       (A) The 30th day after the designated billing office receives a proper invoice from the
       Contractor (except as provided in paragraph (a)(1)(ii) of this clause).

       (B) The 30th day after Government acceptance of supplies delivered or services
       performed.

Similarly, Determining payment due dates, FAR 32-904 (b)(1)(i) and (ii) establishes the
payment standards as (1) The later of the following two events:

       (i)     The 30th day after the designated billing office receives a proper invoice from
               the contractor (except as provided in paragraph (b)(3) of this section).
       (ii)    The 30th day after Government acceptance of supplies delivered or services
               performed.

The above is consistent with FAR Subpart 52.216-7 and the GAO Standards for Internal Control
in the Federal Government. As such, DAI maintains that similar and appropriate standards are
applied to all claims and invoices prior to issuing payment.

The auditor opines that the FMR and/or GL could be incomplete, yet acknowledges that
the reconciliation prepared and provided did not result in material misstatements.

As supporting documentation provided to the auditors demonstrates, the risk to incurring greater
than fair market value is very low. In no instance did the auditor challenge completion of work
performed. Lastly, we believe that all relevant documentation is on file and was provided to the
auditor in support of costs claimed.



                                                57
Recommendation #5

 In response to the recommendation to improve procedures to ensure that the FMR is properly
 prepared and reconciled to the GL, DAI has started a comprehensive review of our TAMIS
 system and related processes to refine systematic requirements which will ensure that proper
 reconciliations, reviews and approvals are performed and adequately documented
 prospectively for all grants and procurements.

 The auditor also advises that DAI identify and correct clerical errors, including erroneous
 payments to vendors and personnel during the review process and prevent untimely
 payments to vendors. DAI is continually working to refine the Field Operations Manual and
 working with our field staff to ensure that unused accrued leave is used more timely in a
 manner to not impede project activities. As relates to the untimely payments referred to by
 the auditor, DAI asserts that the review process ensured that costs claimed by the
 subcontractor were adequately documented as required prior to issuing payment. This
 assures that the amount billed is correct and supported.

Recommendation #6

DAI is reviewing the Field Operations Manual template and working with our field
management teams to ensure that unused accrued leave is used timely to reduce instances
where large leave payouts are requested when employees are terminated.

Recommendation #7

DAI disagrees with the auditor that the payments reflected were untimely. DAI ensures that
all terms, conditions and invoicing requirements are achieved prior to issuance of
payment to vendors and subcontractors. We believe that this is a best practice as it ensures
that appropriate and compliant documentation is received, reviewed and confirmed. This
reduces the possibility of inappropriate or incomplete documentation in support of amounts
billed under the contract.

Recommendation #8

DAI believes that the recommendation indicates recovery of a $27 credit from USAID;
whereas the intent is to recommend a recovery of leave paid out in excess of USAID approval
in the amount of $2,411. As acknowledged under the particular finding reference, ASI NFR
2014-1.1, DAI has already credited $2,411 to the USAID contract.

DAI waives the recovery of the net $27 credit. The amount invoiced to ASI was less and so the
resulting short-payment will not be pursued further.




                                              58
ASI NFR 2014-2 – Insufficient Documentation for Bidding Procedures for shipping of freight
into Afghanistan.

   •   Allowances – DAI’s home office procurement reviewed the transaction sampled and
       provided information supporting that:

            •   There was a limited number of qualified freight forwarding companies
                who provide shipping services between Afghanistan and Tbilisi, Georgia.

            •   MEBS was selected based on their ability and experience operating in
                Afghanistan.

            •   MEBS owned their own warehouse to secure the shipment and had
                familiarity with security concerns and complex customs clearance
                processes.

            •   MEBS was one of the US Government (USAID, Embassy and DOD)
                preferred vendors.

       The auditor refers to FAR 13.104 which discussed promoting competition to the
       maximum extent practicable. DAI maintains that it complied with this requirement and
       that full competition was not possible and so not practicable.

       We therefore believe that the costs billed are allowable, allocable and reasonable and
       no further action is required.

   •   ODCs – The auditor challenges that competition was not conducted for ASI’s mobile
       phone services provider, Roshan. In fact, Roshan was one of the larger and more
       reliable communications providers in Afghanistan whose service coverage was
       unimpeded in East Afghanistan which is where ASI operated. ASI’s security provider,
       Edinburgh International (EI), used Roshan as their mobile services provider. Using
       Roshan ensured that ASI and EI staff could readily and consistently communicate
       as needed. Given the volatility of the security situation this was critical to both
       staff safety and project operations.

       DAI therefore maintains that the costs billed, $7,846 are allowable, reasonable and
       allocable.

       DAI maintains that documentation was provided to support costs billed and that these
       are reasonable, allowable and allocable.

       In the first instance DAI provided information to the auditor demonstrating the reason
       for using MEBS to conduct the shipment of personal affects. In the second instance,
       Roshan was the only responsible option for mobile telephone services in eastern
       Afghanistan.




                                               59
DAI complies with the criteria established in FAR 13.0, Simplified Acquisition Procedures,
FAR 13.104, Promoting Competition and DAI’s Field Procurement Guide.

DAI also complies with FAR 31.201-2 and assures our responsibility for accounting for costs
appropriately and for maintaining records, including supporting documentation, adequately
demonstrating that costs claimed have been incurred, are allocable to the contract and
compliance with applicable cost principles.

In both instances DAI provided information detailing the basis for assigning the awards to
MEBS and Roshan, that the costs are at fair market value and that the Government received
the best value for procured goods/services.

Recommendation #9:

DAI believes that we have demonstrated appropriate support for the related procurements and
so disagrees with the total amount questioned $11,524.

Management Response to APPENDIX A – PRIOR AUDIT FINDINGS AND STATUS -
Financial Audit of Costs Incurred by DAI for ASMED (USAID Office of Inspector General
Audit Report No. F-306-12-002-N)

The auditor reflects that a previously reported finding in the above report questioned $88,000
Alliance related activity costs as ineligible. DAI provided our response and supporting
evidence to the Contracting Officer, Mr. Charles Pope on October 28, 2011 detailing our
disagreement with the conclusion that the costs were ineligible.

A copy DAI’s response is attached. 1




1
    A copy of this memo from DAI to the contracting officer has been included in the report on the following pages.



                                                           60
61
     Office of the Special Inspector General for
                    Afghanistan Reconstruction
                 Development Alternatives, Inc.
                                   Audit Report




62
                    Office of the Special Inspector General for
                                   Afghanistan Reconstruction
                                Development Alternatives, Inc.
                                                  Audit Report




         APPENDIX C –
  AUDITOR’S EVALUATION OF
 DEVELOPMENT ALTERNATIVES,
INC. RESPONSE TO AUDIT REPORT




              63
                                                                   Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
                                                                               Development Alternatives, Inc.
                                                                                                 Audit Report


Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this document)
appreciates the thorough and thoughtful responses to the audit report provided by Development
Alternatives, Inc.’s (DAI) management. DAI disagreed with the majority of the issues presented
and agreed with a limited number of the issues presented. Kearney presents a complete rebuttal
to the full response from DAI’s management below.

1. We disagree with DAI’s position that the audit report is not supported by the results of audit
   testing. This engagement encompassed audit procedures over the Special Purpose Financial
   Statements (SPFS), internal controls, compliance with relevant laws and regulations, and
   results of DAI’s corrective actions to previous audit findings. Kearney issued an opinion on
   the SPFS and noted two material weaknesses as a result of pervasive control findings
   documented while executing testing procedures, some of which resulted in questioned costs,
   while others did not result in questioned costs. These findings are supported by our working
   papers.

   As these SPFS are classified as “special purpose,” the SPFS structure is designed to
   communicate very specific information to the readers. The content of these SPFS includes
   management’s contract costs incurred and fees applied for two contracts, followed by the
   reporting of questioned costs as a result of applied audit procedures. Questioned costs are
   reported, in conjunction with control and compliance findings, in order to alert the users of
   this report, which are limited to DAI, the Office of the Special Inspector General for
   Afghanistan Reconstruction (SIGAR), and the United States Agency for International
   Development (USAID), to specific instances in which questioned costs exist. The SPFS
   requirements were designed to support the identification and communication of questioned
   costs, whether unsupported or ineligible, and are intended to assist USAID’s Contracting
   Officer in the execution of his/her duties in compliance with Federal Acquisition Regulation
   (FAR) Subpart 1.6, Career Development, Contracting Authority, and Responsibilities. The
   SPFS requirements are also intended to support SIGAR in its duties in accordance with
   Section 1229 of the National Defense Authorization Act for Fiscal Year 2008. Ultimately, in
   accordance with FAR 1.602-2, Responsibilities:

      “Contracting officers are responsible for ensuring performance of all necessary actions for
       effective contracting, ensuring compliance with the terms of the contract, and
       safeguarding the interests of the United States in its contractual relationships… (c)
       Request and consider the advice of specialists in audit, law, engineering, information
       security, transportation, and other fields, as appropriate.”

   As part of FAR Subpart 1.602-2, it is the Contracting Officer’s responsibility to make a final
   determination as to allowability of a cost, but may consider the audit results when doing so.
   It is Kearney’s responsibility to conduct this SPFS audit in accordance with Generally
   Accepted Government Auditing Standards (GAGAS) and the requirements of the SPFS,
   which includes reporting questioned costs. When considering the instances of control and
   compliance findings, including those with related questioned costs, we have sufficient audit
   evidence in support of our conclusions related to our audit opinion and supporting Schedule
   of Findings.


                                               64
                                                               Office of the Special Inspector General for
                                                                              Afghanistan Reconstruction
                                                                           Development Alternatives, Inc.
                                                                                             Audit Report


a. DAI comments that Kearney “…reported these costs as unsupported based on their
   interpretation of documentation requirements for the competitive bidding of these
   respective grants.” The explicit discussion “that many of the grants will not be awarded
   competitively” does not negate DAI’s responsibility to fully document efforts at either
   competitively awarding the grant or justifying sole source awards in accordance with
   FAR Subpart 13.0, Simplified Acquisition Procedures, Section 13.003, “Policy”; and
   FAR Subpart 13.1, Procedures, Section 13.104, “Promoting Competition.” Sufficient
   supporting documentation related to a justified sole source or competitively awarded
   grant, in the reported instances, was not provided by DAI. Therefore, Kearney is
   reporting these instances and costs in order to alert the reader to DAI’s interpretation of
   the Grant Manual, which may have resulted in grant awards that do not comply with the
   competition requirements as stated in the Automated Directives System (ADS), Chapter
   303, “Grants and Cooperative Agreements to Non-Governmental Organizations,” Section
   303.3.6.1, “Competition Requirements”:

          “In accordance with the Federal Grant and Cooperative Agreement Act, USAID
           encourages competition in the award of grants and cooperative agreements so that
           it may identify and fund the best projects to achieve program objectives. Unless
           USAID authorizes an exception in accordance with 303.3.6.5, USAID must award
           all grants and cooperative agreements competitively. Competition requires that
           the Agency publish an announcement in accordance with 303.3.5, seek
           applications from all eligible and qualified entities, conduct an impartial review
           and evaluation of all applications (see 303.3.6.4), and make an objective
           recommendation to the AO for award.”

b. Kearney did not stipulate that pervasive documentation does not exist, as noted by DAI.
   DAI’s comment inaccurately focuses on the dollar value of the question costs as the only
   source for the conclusions documented in this report. The results of our testing identified
   questioned costs, instances of control failures, and instances of noncompliance, that when
   considered individually and in the aggregate, resulted in the audit conclusions reported.
   As discussed in the paragraph preceding Table 3, and to further clarify, the quantitative
   and qualitative aspects of the findings, and the significance of the statement balances to
   which these findings correspond, resulted in Kearney’s conclusion that two material
   weaknesses exist. These material weaknesses are described in the Schedule of Findings
   and Responses for the two contracts subject to audit in this report.

   DAI stated several times that they do not believe that some of the individual findings rise
   to the result of a material weakness. Determination of materiality was completed in
   accordance with AU 312, Audit Risk and Materiality in Conducting an Audit. The
   materiality limits were reasonable and appropriate for issuance of the opinion. Kearney
   followed all necessary terms and conditions in execution of this audit. When each
   finding and the root cause of each finding are considered, inclusion of the issues is
   considered appropriate and reasonable.




                                            65
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


2. The Independent Auditor’s Report was issued in accordance Government Auditing Standards
   and included the concept of materiality in the issuance of the opinion. AU 312, Audit Risk
   and Materiality in Conducting an Audit, Section, “Users,”paragraph .05, states:

          “In an audit of financial statements, the auditor’s judgment as to matters that are
           material to users of the financial statements is based on consideration of the needs of
           users as a group; the auditor does not consider the possible effect of misstatements on
           specific individual users, whose needs may vary widely.”

   With regard to the SPFS, materiality was developed in coordination with the statement users
   to support their needs.

3. Kearney commends DAI for having a continuous focus on internal controls and compliance,
   and hopes that DAI considers the recommendations presented to be helpful in its process and
   control improvement efforts.

4. Kearney was contracted to issue an opinion on the SPFS for Contract Number 306-C-00-07-
   00503-00, Afghanistan Small and Medium-Sized Enterprise Development for the period of
   October 26, 2006 through October 31, 2011 (herein referred to as the ASMED contract); and
   for Contract Number 306-DOT-I-02-08-00035-00, Afghanistan Stabilization Initiative for the
   period of November 1, 2011 through September 25, 2012 (herein referred to as the ASI
   contract). Kearney did not perform an assessment of the performance or value of the costs
   incurred. DAI’s responses are not relevant, as value, effectiveness, and success of the
   ASMED and ASI programs are not the subject of this engagement. The SPFS were designed
   to result in a report that provides the user with information on whether a set of statements are
   materially accurate and whether, in execution of the audit procedures, instances of lack of
   controls and compliance were noted.

Below, Kearney has provided our responses to DAI’s management’s individual responses to the
findings noted in the Schedule of Findings and Responses.

ASMED NFR 2014-1.1 – Insufficient Approvals

In regard to the grants extensions, DAI does not dispute the condition, and as such, the finding
stands as issued. However, DAI should reconsider the corrective action of unilateral
modifications, as the grantee may not understand and/or concur with a modification.
Specifically for grants or other legally binding agreements, bilateral modifications serve as
formal notification to the grantee of a modification and their understanding and agreement of the
modification, as evidenced via signature or fingerprint of the recipient or an officer of the
receiving organization.

In regard to the ODCs, DAI does not dispute that the PO was executed after the period of
performance. The PO was executed on June 23, 2008, and the period of performance was
December 1, 2007 through May 31, 2008. Work should not be initiated until an agreement or



                                                66
                                                                     Office of the Special Inspector General for
                                                                                    Afghanistan Reconstruction
                                                                                 Development Alternatives, Inc.
                                                                                                   Audit Report


PO is finalized because the executed agreement or PO is the legal instrument that controls the
actions to be taken by both parties. The finding stands as issued.

ASMED NFR 2014- 1.2 – Clerical Errors

In regard to the ODCs, DAI does not dispute that there were errors in the payment amount. The
finding stands as issued. DAI should consider accuracy when payments are being made (not
only whether overpayments were made) to foster good will with their vendors. Further, internal
controls should be designed and executed in a manner to prevent and detect errors in a timely
manner.

In regard to the grants, DAI does not dispute that the amount recorded in the grant agreement
was $0. The finding stands as issued because the dually executed grant agreement is the legal
instrument that controls the actions to be taken by both parties.

ASMED NFR 2014-1.3 – Unexplained Discrepancies between GL Balances and Grant Closeout
and/or Supporting Documentation

In regard to payroll, DAI indicated that the differences identified in the finding related to
exchange rate variances; however, for the items in question, all necessary information to confirm
an exchange rate variance was not provided. Thus, the root cause of the problem was unable to
be confirmed as relating to an exchange rate variance. DAI conducts a significant portion of
payments in foreign currency and should be able to readily identify and support all variances
caused by exchange rate variances; without this, there is the potential that a the actual transaction
in question may not be able to be fully supported. The finding stands as issued.

ASMED NFR 2014-1.4 – Improper Review Procedures of Grants

In regard to the period of performance, DAI indicates that the period of performance is implied
through the date of the signatures and the completion date; however, the signatures on the grant
agreement do not include a date. Further, if a date was included, it may not necessarily be
indicative of the grant start date. The finding stands as issued.

ASMED NFR 2014-1.5 – Timing Issues

In regard to the grant activity, DAI indicates that e-mail traffic to support that follow-up was
ongoing to ensure payment was proper; however, documentation was not provided to support
this statement. Further, DAI indicates in their response that three months passed between the
time complete documentation was received and payment to the vendor made; this statement
continues to indicate that payment was not made timely. The finding stands as issued.

In regard to DAI’s general comments following this NFR:

   •   In regard to the CFR, Section 226.71, “Close-out Procedures,” not applying because DAI
       is a contractor and not a recipient, according to the ASMED Contract, Section H.24,


                                                 67
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


       “Grant Under Contract,” “Requirements which apply to USAID-executed grants shall
       also apply to grants executed by the contractor.” Thus all close-out documentation
       should be complete and accurate. In order to properly close-out a grant, final reports
       must be provided and funds must be de-obligated. To accomplish this, an accurate
       amount of payments made to the grantee will need to be determined
   •   In regard to the grant close-out documentation and/or GL not being fully updated, DAI
       completed these reconciliations as a result of auditor inquiry and not based on an
       adequately designed and/or executed control system. DAI needs to consider the timing of
       the reconciliations in relation to the end date of the contract under audit, and the impact
       to DAI and the Government related to the lack of timely completion
   •   In regard to the materiality limits, please see Appendix C for the auditor’s overall rebuttal
       to DAI’s Management Response.

In regard to Recommendation #2, Kearney defers to the USAID Contracting Officer for a final
determination as to the allowability of the questioned costs.

ASMED NFR 2014-2.1 – Competitive Bidding Documentation

In regard to the allowances, documentation to support the bidding decision provided was a
Memo to File, dated February 2014, for transactions that occurred in May and October of 2009.
DAI’s recordkeeping and retention practices need to be improved to ensure justifications are
documented and maintained prior to incurring expenses, and not four years later as the result of
audit inquiry. This is necessary to reduce risk to the contractor and the Government. The
finding stands as issued.

In regard to the grants, Kearney understands that grants may not be awarded competitively;
however, adequate documentation should be available to support either the lack of competition
or the competition. Without this supporting documentation, DAI will be unable to evidence that
“its best efforts to foster competition for grant awards” were carried out. Further, although
documentation is provided to USAID to obtain approval prior to grant award, USAID may not
have all necessary information to make an informed decision without adequate documentation to
support competition or lack of competition. Approval by USAID should not be used by DAI as
one of their internal controls. While the USAID Contracting Officer will have the ultimate
decision in approval of allowability of costs, DAI should ensure that all requirements are
independently met; this serves to protect the Government and DAI in case of USAID and/or DAI
policy or personnel changes. Award to a “specific and unique association or industry” does not
preclude DAI from adequately documenting competition. Per the Automated Directives Systems
(ADS) 303.3.6.5, “When Competition Is Not Required:”

       “Under certain circumstances, USAID does not require competition as indicated below in
        a., b., and c. of this paragraph. These situations are different from those in which an
        exception to competition requirements permits less than full competition, as discussed in
        303.3.6.6 below. The required documentation for an assistance action varies depending
        upon whether competition is required and whether there is an applicable exception that
        permits less than full competition.


                                                68
                                                                   Office of the Special Inspector General for
                                                                                  Afghanistan Reconstruction
                                                                               Development Alternatives, Inc.
                                                                                                 Audit Report




       “Competition requirements do not apply and, therefore, no exception to competition or
        Justification for Exception to Competition (JEC) under ADS 303.3.6.6 is needed for an
        assistance action otherwise covered by this chapter for:

           a. The issuance of associate awards made under a previously competed Leader with
              Associate Instrument,
           b. Awards, extensions, or amendments using non-appropriated funds (including, but
              not limited to, monies or in-kind contributions from bilateral and multilateral
              development partners, host country governments, foundations and other private
              sector entities), and
           c. Extensions to existing agreements under 22 CFR 226.25(e)(2).”

ASMED 2014-2.3 – Alliance Final Report

In regard to the Alliance Final Report, the DAI ASMED GDA Policies and Procedures Manual
indicates that a final report will be submitted. The finding relates to noncompliance with DAI’s
approved Policies and Procedures Manual and a control issue. The final report is vital in
providing a description of the results that were accomplished during the GDA. Without this
information, it may put additional burden on DAI and the Government to determine that all
requirements of the GDA were met. The finding stands as issued.

In regard to DAI’s general comments following this NFR:

   •   Kearney agrees that for many transactions, additional documentation was provided to
       allow the costs to be fully supported in order to support the material accuracy of the
       financial statements taken as a whole; however, certain documentation is essential to
       demonstrate an adequate control environment is in place. Without such documentation,
       evidence of an effective control environment does not exist. Sufficient documentation
       retention is essential for maintaining adequate support for costs incurred and the
       operating effectiveness of internal controls.

In regard to Recommendation #3, Kearney defers to the USAID Contracting Officer for a final
determination as to the allowability of the questioned costs.

In regard to Recommendation #4, Kearney disagrees that all necessary supporting documentation
was maintained and readily available. Kearney commends DAI for taking actions to improve
processes and conduct reviews.

ASI NFR 2014-1.1 – Unexplained Discrepancies between the Final Monitoring Reports and
General Ledger Balances

In regard to the updated FMRs, DAI completed these reconciliations as a result of auditor inquiry
and not based on an adequately designed and/or executed control system. DAI needs to consider
the timing of the reconciliations in relation to the end date of the contract under audit, and the


                                               69
                                                                    Office of the Special Inspector General for
                                                                                   Afghanistan Reconstruction
                                                                                Development Alternatives, Inc.
                                                                                                  Audit Report


impact to DAI and the Government related to the lack of timely completion. DAI does not
dispute that the documentation originally provided was not updated to include all transactions.
The finding stands as issued.

ASI NFR 2014-1.2 – Clerical Errors

In regard to the subcontract invoice error, DAI does not dispute the error on the invoice. The
finding stands as issued. DAI should consider accuracy with regard to payments (not only
whether overpayments were made) to foster good will with their vendors. Further, internal
controls should be designed and executed in a manner to prevent and detect errors in a timely
manner.

ASI NFR 2014-1.3 – Untimely Payment

In regard to the untimely payments, DAI agreed that the payments were not made timely. The
payments should be made within 30 days or invoices should be rejected and resubmitted by the
vendor when adequate supporting documentation can be provided. The finding stands as issued.

In regard to DAI’s general comments at the end of the NFR:

    •   In regard to CFR, Section 226.53, “Retention and Access Requirements,” and DAI
        ASMED GDA Policies and Procedures, adequate documentation was not provided to
        support all costs; thus, DAI did not comply with all requirements
    •   In regard to the CFR, Section 226.71, “Close-out Procedures” not applying because the
        vendor is not a recipient but rather a contract, Kearney disagrees. According to the ASI
        Contract, under which 306-DOT-I-02-08-00035-00 is a Task Order, Section H.20,
        “Grant Under Contract,” “Requirements which apply to USAID-executed grants shall
        also apply to grants executed by the contractor.” Thus all close-out documentation
        should be correct. In order to properly close-out a grant, final reports must be provided
        and funds must be de-obligated; to accomplish this, an accurate amount of payments
        made to the grantee will need to be determined
    •   In regard to FAR Subpart 31.2, while adequate documentation was provided to support
        the costs incurred, adequate documentation was not provided to support all aspects of
        the transaction nor to evidence proper controls. In regard to acknowledging price
        reasonableness, Kearney did not challenge that work was not completed; however, all
        documentation to fully support the costs incurred was not provided
    •   In regard to the FMR, the documentation originally provided was not updated to include
        all transactions. If the transactions were not selected for audit, the reconciliation would
        not have been completed, thus an error could have gone undetected.

In regard to Recommendation #5, Kearney commends DAI for starting a review of the Technical
Administrative Management Information System (TAMIS) and related processes. Kearney notes
that an adequate review of an invoice can be completed and payment made with 30 days, as
required by standards.



                                                70
                                                                  Office of the Special Inspector General for
                                                                                 Afghanistan Reconstruction
                                                                              Development Alternatives, Inc.
                                                                                                Audit Report


In regard to Recommendation #6, Kearney commends DAI for performing a review of the Field
Operations Manual.

In regard to Recommendation #7, Kearney maintains that the payments were not made timely, in
accordance with the documentation provided.

In regard to Recommendation #8, DAI demonstrated to Kearney that they intended to submit an
invoice to USAID that would return the $2,411 to USAID; this reduction in costs was included
on the face of the SPFS provided to Kearney by DAI. As the costs were already removed from
the SPFS, Kearney did not include them as questioned costs to be returned; thus, the costs were
excluded from the recommendation and in the amounts questioned on the SPFS. Kearney notes
that DAI has waived the recovery of $27, and defers to the Contracting Officer for final
approval.

In regard to the allowances, documentation to support the bidding decision provided was a
Memo to File, dated January 2014, for a transaction that occurred in January of 2012. Adequate
documentation should be available to support either the lack of competition or the competition
prior to the transaction occurring. DAI’s recordkeeping and retention practices need to be
improved to ensure justifications are documented and maintained prior to incurring expenses,
and not two years later as the result of audit inquiry. This is necessary to reduce risk to the
contractor and the Government. The finding stands as issued.

In regard to the ODCs, adequate documentation should be available to support either the lack of
competition or the competition prior to the transaction occurring. In this case, no written
documentation was provided. DAI provided a verbal explanation explaining the reasons why the
vendor was selected against the background of the environment of competition and compliance
requirements. The finding stands as issued.

In regard to Recommendation #9, Kearney defers to the USAID Contracting Officer for a final
determination as to the allowability of the questioned costs.

In regard to the results of the prior audit, Financial Audit of Costs Incurred by DAI for ASMED
(USAID Office of Inspector General Audit Report No. F-306-12-002-N), Kearney acknowledges
that DAI provided information as to the status. The Contracting Officer will make the final
determination as to the allowability of the costs incurred.




                                               71
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
